<html>
<title> - RUSSIAN VIOLATIONS OF BORDERS, TREATIES, AND HUMAN RIGHTS</title>
<body><pre>[Senate Hearing 114-741]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-741
 
  RUSSIAN VIOLATIONS OF BORDERS, TREATIES, AND HUMAN RIGHTS
                                 

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                             JUNE 7, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       
       


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                     U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-077 PDF                  WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                              
                         
                         
                         
                         
                         


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2


Nuland, Hon. Victoria, Assistant Secretary, Bureau of European 
  and Eurasian Affairs, U.S. Department of State, Washington, DC.     3

    Prepared statement...........................................     6

    Answers to questions for the record submitted to Victoria 
      Nuland by Senator Cardin...................................    47

    Answers to questions for the record submitted to Victoria 
      Nuland by Senator Isakson..................................    50

    Answers to questions for the record submitted to Victoria 
      Nuland by Senator Boxer....................................    51

    Answers to questions for the record submitted to Victoria 
      Nuland by Senator Perdue...................................    53


Carpenter, Michael, Deputy Assistant Secretary of Defense, 
  Russia, Ukraine, and Eurasia, U.S. Department of Defense, 
  Washington, DC.................................................     8

    Prepared statement...........................................    10


Satter, David, Senior Fellow, Hudson Institute, Washington, DC...    32

    Prepared statement...........................................    33


Kara-Murza, Vladimir, National Coordinator, Open Russia Movement, 
  Russian Federation.............................................    36

    Prepared statement...........................................    38




                             (iii)        

  


       RUSSIAN VIOLATIONS OF BORDERS, TREATIES, AND HUMAN RIGHTS

                              ----------                              


                         TUESDAY, JUNE 7, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Gardner, Perdue, Barrasso, Cardin, Menendez, Shaheen, 
Coons, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We thank our witnesses for being here, and look forward to 
their testimony.
    We are obviously here today to talk about Russia and its 
role in the world. Together, our countries have conquered the 
Nazis, prevented the proliferation of nuclear weapons in the 
1990s, and worked against terrorists in the years after 9/11. 
Yet, for most of modern history, Americans and Russians have 
found themselves at cross-purposes. Throughout the Cold War, we 
trained to obliterate each other. With the fall of the Berlin 
Wall, many politicians argued that the difficult days of 
confrontation were behind us.
    Leaders like Gorbachev and Yeltsin worked to place Russia 
on a path towards democracy and peaceful engagement with the 
rest of the world. Reagan asked for the walls to be torn down, 
George W. Bush had Putin come to his home in Texas, and Obama 
sought to reset the relationship in a way that prioritized 
communication and cooperation.
    Scholars will long argue over exactly when the U.S./Russia 
relationship again became confrontational, but looking back, 
the Russia-Georgia war in August of 2008 seems to mark the 
beginning of a new age. Since that summer, a so-called 
resurgent Russia has pushed back on the institutions and allies 
of the West. Russia has invaded Georgia and Ukraine, striking 
them in ways designed to prevent their integration into the 
European Union and the North Atlantic Treaty Alliance. Russia 
has acted contrary to the Intermediate-Range Nuclear Forces 
Treaty, the New Strategic Arms Reduction Treaty, the Open Skies 
Treaty, and the Incidents at Sea Agreement. Russia has altered 
the human rights landscape within its own country, decreasing 
democracy and begging questions about the future of governance, 
not just in Moscow, but across the Federation. Moreover, Russia 
has joined the civil war in Syria and begun militarizing the 
Arctic.
    Now when we talk about the U.S./Russia relationship and the 
ways that we interact globally, the days following the end of 
the Cold War seem very far away as the relationship has once 
again grown distrustful and confrontational. As we meet today 
to talk about the role that Russia has come to play in the last 
several years, we must address these topics through the lens of 
realism. It would be easy to simply catalog the events that 
have brought us to where we are today, but we are charged with 
a higher responsibility, which is not only to diagnose the 
problem, but to begin generating prescriptions for where we go 
next. Discussions about the violations of norms must be paired 
with conversations about ways of effectively setting boundaries 
and engaging with Russia in order to make our world more stable 
and ultimately to serve U.S. national interests. Our countries 
are too powerful and the interplay between us too important to 
resign ourselves to the increasing escalation and risk of 
confrontation.
    I look forward to hearing today how we can recognize the 
new realities of the U.S./Russia relationship and implement a 
new strategy that puts us on a better trajectory.
    And, with that, I will turn to our distinguished ranking 
member, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Chairman Corker, first let me thank 
you for calling this hearing, and let me concur in all of your 
comments in your opening statement. I totally agree with the 
points that you raised and the challenges we have in regards to 
our relationship with Russia.
    Today we meet to discuss Russia's efforts to undermine 
institutions that have maintained peace and security in Europe 
since the end of the Cold War. Russia's actions in Georgia in 
2008, support for separationist enclaves in Georgia and 
Moldova, invasion of Ukraine, illegal annexation of Crimea, and 
the ongoing support for the combined Russian separationist 
forces in eastern Ukraine have challenged the security of 
sovereign borders, something that has been a mainstream of 
relations in Europe since the signing of the Helsinki Accord in 
1975. And we have serious concerns about Russia's compliance 
with seminal arms control treaties. While I understand that 
Russia complies with treaties like New START, it is in 
violation of others, like the INF and there are compliance 
issues with the Open Skies Treaty. I am concerned about these 
violations and look forward to hearing how we can strengthen 
our ability to verify and enforce their terms. There are 
legitimate questions about the value of such accords as Russia 
wantonly disregards its international commitments. This should 
not lead us to the conclusion that all arms-control agreements 
should be ripped up. While not perfect, these agreements afford 
us some visibility into Russia's intentions.
    I also want to underscore the importance of these treaties 
to our allies, especially Open Skies. As we seek to bolster 
European unity in the face of Russian aggression, I believe 
that pulling out of Open Skies would send the wrong message to 
our friends.
    What is often lost in the debate about Russia's negative 
behavior abroad is how it treats its own people at home. Last 
year's horrific murder of Boris Nemtsov, just steps from the 
Kremlin, is the most sobering example of the danger facing the 
opposition. Today, we are honored to be joined by Vladimir 
Kara-Murza, a prominent member of the political opposition, who 
was poisoned in Moscow under suspicious circumstances and spent 
months in a coma.
    Vladimir, thank you for your courage and all that you do 
for the people of the Russian Federation.
    New laws targeting foreign agents in undesirable 
organizations which label NGOs as traitors of the Russian state 
have impeded the work of NDI, OSF, and the MacArthur 
Foundation. Putin has fueled corruption by weakening the rule 
of law, and his associates know that their fortunes depend on 
access and allegiance to the regime. And those who make public 
these corrupt acts are threatened, abused, or even worse. 
Sergei Magnitsky was one of them, and he paid the ultimate 
price for his honesty. As everyone here knows, the Magnitsky 
law targets human rights abusers inside Russia. While 40 people 
have been sanctioned since 2012, I call on the administration 
to hold accountable more human rights abusers in the country.
    As human rights violations increase, so should our 
response. In summary, Russia under Putin is a kleptocratic 
regime intent on undermining democracy at home and abroad. Yes, 
we will have shared interests with the Russian regime, and we 
need to pursue them, but we can never forget our principles and 
turn a blind eye to human rights violations committed by the 
Putin regime.
    Mr. Chairman, again, thank you for convening this hearing. 
I look forward to hearing from our witnesses.
    The Chairman. Well, thank you very much.
    We do appreciate our witnesses being here. I do not think 
we have had as many people outside trying to get in the 
building in quite a while, so it is obviously something people 
care about.
    And we thank The Honorable Victoria Nuland, Assistant 
Secretary of State for the Bureau of European and Eurasian 
Affairs, for being here. We look forward to your testimony. And 
Dr. Michael Carpenter, Deputy Assistant Secretary of Defense 
for Russia, Ukraine, and Eurasia. You all have been here 
before. You know you can summarize your testimony in about 5 
minutes. We have read your written testimony in advance, and we 
look forward to the questions that follow.
    But, if you would start, Tory, that would be great.

STATEMENT OF HON. VICTORIA NULAND, ASSISTANT SECRETARY, BUREAU 
  OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                        WASHINGTON, D.C.

    Ms. Nuland. Thank you, Chairman Corker, Ranking Member 
Cardin, members of this committee, for the opportunity to join 
you and discuss the challenges posed to international peace and 
security by Russia today and the administration's policy 
towards Moscow.
    As you all know, for more than 20 years following the 
collapse of the Soviet Union, the United States has sought to 
build a constructive relationship with Russia and to support 
that country's greater integration into regional and global 
institutions and the rules-based international order. Our 
working assumption in doing this was that a more integrated, 
democratic, secure, and prosperous Russia would be a safer, 
more predictable and willing partner for the United States and 
our allies.
    By 2014, however, we had no choice but to reevaluate our 
assumptions, following Russia's invasion of sovereign Ukrainian 
territory, first in Crimea and then in eastern Ukraine, which 
shattered any remaining illusions about this Kremlin's 
willingness to abide by international law or live by the rules 
of the institutions that Russia joined at the end of the Cold 
War.
    Our approach to Russia today seeks, first, to deter further 
aggression through the projection of strength and unity with 
our allies; second, to build resilience and reduce 
vulnerability among friends and allies that are facing Russian 
pressure and coercion; third, to cooperate on core security 
priorities when our interests and Russia's do align; and, 
fourth, to sustain ties to the Russian people to preserve the 
potential for a more constructive relationship in the future. 
Let me go through these.
    First, strength and deterrence. To counter the threat posed 
by Russian aggression and deter any military moves against NATO 
territory, over the past 2 years the United States and our NATO 
allies have maintained a persistent rotational military 
presence on land, sea, and air all along NATO's eastern edge: 
the Baltic states, Poland, Romania, Bulgaria. As we look 
towards the NATO Summit in Warsaw this coming July, allies will 
institutionalize a more sustained approach to deterrence, 
including by enhancing forward presence in the East to reduce 
response times to any aggression. To support this commitment, 
the President has requested $3.4 billion to fund the European 
Reassurance Initiative. With your support, these funds will be 
used to deploy an additional rotational armored brigade combat 
team to Central and Eastern Europe, and for pre-positioning of 
combat equipment as well as additional trainers and exercises 
in Europe. Dr. Carpenter will talk about this in detail.
    To press Moscow to bring an end to the violence in Ukraine 
and fully implement its commitments under the Minsk Agreements, 
we have worked with the EU, the G7, and other like-minded 
nations to impose successive rounds of tough economic sanctions 
on Russia over the past 2 years, and we are now working 
intensively with Europe to ensure that EU sanctions are rolled 
over at the end of this month and to support France and Germany 
in their lead diplomatic role to push for the full 
implementation of the Minsk Agreements, including the 
withdrawal of all Russian forces from Ukraine and the return of 
Ukraine's sovereign border.
    Next, resilience of partners. Even as we defend NATO 
territory, we are also working to reduce the vulnerabilities 
and increase the resilience of those countries across Europe 
that face pressure from Moscow. To help Ukraine, the United 
States has committed over $600 million in security assistance, 
we have trained 1700 Ukrainian conventional forces and National 
Guard personnel, we have provided counter-artillery and 
counter-mortar radars, over 3,000 secure radios, and a number 
of other pieces of equipment to help Ukrainian troops 
successfully resist further advances and to save lives.
    To continue our work across Europe and Eurasia to 
strengthen democratic institutions, reform economies, fight 
corruption, and build the resilience of our partners, we have 
requested $787 million in FY17 focusing on our priorities on 
those countries that are most vulnerable to Russian pressure. 
Our programs and advisors focus on improving governance, 
squeezing out graft and fraud, strengthening justice systems, 
improving election standards, hardening border security and 
homeland defenses, and building energy independence to make 
countries more resilient and stronger in the face of pressure. 
We are also deepening intelligence cooperation across Europe 
and Eurasia to detect and blunt Russia's covert and overt 
efforts to manipulate the internal politics of European 
countries.
    Even as we push back against Russian aggression and support 
neighbors that are under pressure, the United States will 
continue to look for areas where our interests and Moscow's 
align. We have worked with Russia, for example, to remove 
Syria's declared chemical weapons, to prevent Iran from 
acquiring nuclear weapons, to contain the nuclear threat 
emanating from the DPRK, and to negotiate and implement the New 
START Treaty. As you all know, over the past 8 months, 
Secretary Kerry has led multilateral efforts to try to resolve 
the crisis in Syria, establishing the International Syria 
Support Group and forging a critical agreement on a cessation 
of hostilities, which has reduced violence even as that 
agreement is tested every single day. These efforts have all 
required hardheaded diplomacy with Russia, and we continue to 
call on the Kremlin to bring its influence to bear on the Assad 
regime to prevent civilian casualties and to end barrel-bombing 
and the regime's obstruction of humanitarian aid deliveries to 
the besieged communities.
    Finally, we must continue to engage directly with those 
Russian individuals, businesses, and organizations who want to 
work with us, who share our interests and values, and who are 
working for a better future for their country. Despite Moscow's 
crackdown on civil society and a free press, our exchange 
programs and our scientific cooperation remain hugely popular 
with the Russian people. We will also continue to speak out 
against laws and policies that impede the work of Russian civil 
society and contravene the fundamental rights of freedom of 
expression, assembly, and association in Russia and elsewhere 
in the region.
    The approach that I have just outlined is not without 
challenges and contradictions. I will not claim that it has yet 
brought an end to Russian aggression in Ukraine or Moscow's 
unmitigated support for the Assad regime or its violations of 
treaties and global norms. However, I am convinced that U.S. 
and allied unity regarding Russia over the last 2 years has 
been essential to deterring even worse behavior, to protecting 
our own security, and to bringing the Kremlin to the table on 
critical issues, from Ukraine to Iran to Syria.
    Thank you very much for your attention. I would turn to Dr. 
Carpenter.
    [Ms. Nuland's prepared statement follows:]




                 Prepared Statement of Victoria Nuland

    Thank you Chairman Corker, Ranking Member Cardin, and members of 
this committee for the opportunity to join you and discuss the 
challenges posed to international peace and security by Russia today, 
and the administration's policy toward Moscow.
    As this committee knows, for more than 20 years following the 
collapse of the Soviet Union, across multiple administrations led by 
both political parties, the United States sought to build a 
constructive relationship with Russia, and to support that country's 
greater integration into regional and global institutions and the 
rules-based international order. Our working assumption was that a more 
integrated, democratic, secure, and prosperous Russia would be a safer, 
more predictable and willing partner for the United States and our 
Allies in pursuing shared regional and global goals.
    We had some success and some challenges with this approach, which I 
won't recap here.
    By 2014, however, we had no choice but to reevaluate our 
assumptions following Russia's invasion of sovereign Ukrainian 
territory--first in Crimea, then in eastern Ukraine--which shattered 
any remaining illusions about this Kremlin's willingness to abide by 
international law or live by the rules of the institutions that Russia 
joined at the end of the Cold War.
    Our approach to Russia today seeks first to deter further 
aggression through the projection of strength and unity with our 
Allies; second, to build resilience and reduce vulnerability among 
friends and Allies facing Russian pressure and coercion; third, to 
cooperate on core national security priorities when our interests and 
Russia's do align; and fourth, to sustain ties to the Russian people 
and business community to preserve the potential for a more 
constructive relationship in the future.
                        strength and deterrence
    To counter the threat posed by Russia's aggression and deter any 
military moves against NATO territory, over the past 2 years the United 
States and our NATO Allies have maintained a persistent, rotational 
military presence on land, sea, and air all along NATO's eastern edge--
in Poland, Romania, Bulgaria, and the three Baltic States. All 28 
Allies have participated, and the U.S. has used the $985 million in FY 
2015 European Reassurance Initiative (ERI) funding that Congress 
generously appropriated to increase the number of exercises, training 
sessions, and patrols that we are supporting throughout Europe. This 
month, over 30,000 U.S., NATO and partner nation troops will exercise 
together as a part of a series of military training events, including 
the Polish-led ANAKONDA exercise.
    As we look toward the NATO Summit in Warsaw in July, Allies will 
institutionalize a more sustained approach to deterrence, including by 
enhancing forward presence in the East to reduce response times to any 
aggression. To support this commitment, the President has requested 
$3.4 billion to fund the European Reassurance Initiative. With your 
support, these funds will be used to deploy an additional rotational 
Armored Brigade Combat Team (ABCT) to Central and Eastern Europe; the 
prepositioning of combat equipment; as well as additional trainings and 
exercises in Europe.
    We also expect significant contributions from all other Allies to 
improve NATO's readiness, responsiveness, and interoperability. The 
threats we face today demand that all Allies meet the pledges they made 
at the last NATO Summit in Wales to reverse the slide in defense 
budgets, and commit to spending at least two percent of GDP on defense. 
Seventy percent of Allies are already on track, but all NATO members 
must do their part.
    And, we must make investments that align with future threats. 
Russia's own investments in hybrid tactics, electronic and cyber 
capabilities, disinformation, and violations of the Intermediate-range 
Nuclear Force (INF) Treaty illustrate where we need to respond.
    We are also pushing our Allies and partners to prioritize 
investment in their own homeland and cyber security and encouraging 
increased information sharing to protect against internal and external 
threats.
    To press Moscow to bring an end to the violence in Ukraine and 
fully implement its commitments under the Minsk agreements, we have 
worked with the EU, the G7 and other like-minded nations to impose 
successive rounds of tough, economic sanctions on Russia over the past 
two years.
    These sanctions, combined with low oil prices and Russia's 
continued structural weaknesses, have imposed significant costs. While 
Moscow has not yet changed its approach to Ukraine, our readiness to 
toughen sanctions even further has likely played a role in deterring 
further Russian efforts to grab Ukrainian territory. We are now working 
intensively with Europe to ensure EU sanctions are rolled over at the 
end of this month, and to support France and Germany in their lead 
diplomatic role to push for full implementation of the Minsk 
agreements.
                         resilience of partners
    As we defend NATO territory, we are also working to reduce 
vulnerabilities and increase the resilience of countries across Europe 
that face pressure from Moscow. This effort is a part of our firm and 
deep commitment that countries must be able to choose their own 
futures.
    To help Ukraine better monitor and secure its borders, deploy its 
forces more safely and effectively, and defend its sovereignty and 
territorial integrity, the United States has committed over $600 
million in security assistance. We have trained over 1,700 Ukrainian 
conventional forces and National Guard personnel and 120 Special 
Operations Forces (SOF). We have provided counter-artillery and 
counter-mortar radars, over 3000 secure radios, 130 Humvees, over 100 
armored civilian SUVs, and thousands of medical kits to help Ukrainian 
troops successfully resist advances and save lives.
    To strengthen democratic institutions, reform economies, fight 
corruption, and build the resilience of partners, we have requested 
$787 million in funding for Europe and Eurasia, including to those 
countries most vulnerable to Russian pressure, especially Ukraine, 
Georgia, Moldova, and the Western Balkans. Our programs and advisors 
focus on improving governance, squeezing out graft and fraud, 
strengthening justice systems, improving election standards, hardening 
border security and homeland defense, and building energy independence. 
In Georgia, Moldova, and Ukraine, our assistance is reorienting 
economies away from excessive dependence on Russia and toward growth-
spurring markets in Central and Western Europe. In the Balkans, we have 
also increased our focus this year on countering violent extremism. And 
we're deepening intelligence cooperation across Europe and Eurasia to 
detect and blunt Russia's covert and overt efforts to manipulate 
internal politics.
    Energy diversification also continues to be a key component of our 
strategy, and we have seen progress on this front across Europe. 
Ukraine has now broken its dependence on Russian gas, ended costly 
household energy subsidies, and is making real strides in introducing 
full market standards across the sector. In the Baltics and Central 
Europe, critical projects and actions have reduced energy 
vulnerability, including the opening of Lithuania's and Poland's new 
LNG terminals, and the construction of electricity grid connections 
between the Baltic countries and their EU partners.
    We appreciate the attention so many members of this committee have 
paid to these issues, your visits to countries under threat, and your 
energy security advocacy, including for the completion of projects like 
the Southern Gas Corridor and against schemes like Nord Stream II that 
will increase Europe's dependence on single energy sources.
                    cooperation on shared interests
    Even as we push back against Russian aggression and support 
neighbors under pressure, the United States will continue to look for 
areas where our interests and Moscow's align, and we can work together 
to tackle global challenges, including nonproliferation, nuclear and 
other WMD security, preventing atrocities and humanitarian crises, and 
combating violent extremism and terrorism.
    We have worked with Russia to remove Syria's declared chemical 
weapons, to prevent Iran from acquiring nuclear weapons, to contain the 
nuclear threat emanating from the DPRK, and to negotiate and implement 
the New START Treaty.
    For the past eight months, Secretary Kerry has led multilateral 
efforts to resolve the crisis in Syria, establishing the International 
Syria Support Group (ISSG), and forging a critical agreement on a 
cessation of hostilities, which has reduced violence, even as that 
agreement is tested daily.
    These efforts require hard-headed diplomacy with Russia. While 
working in the ISSG for a political settlement, we continue to call on 
the Kremlin to bring its influence to bear on the Asad regime to 
prevent unnecessary civilian casualties and suffering, and to end 
barrel bombing and the regime's obstruction of aid deliveries to 
besieged communities.
                     engaging with russian society
    Finally, we must continue to foster direct engagement with those 
Russian businesses, organizations, and individuals who want to work 
with us, who share our interests and values and are working for a 
better future for their country. Despite Moscow's crackdown on civil 
society, a free press, exchanges with the West, and political 
pluralism, our people-to-people exchanges; health, environment and 
cultural programs; and educational opportunities for Russians remain 
hugely popular, and continue to promote constructive ties between our 
countries. And we will continue to speak out against laws and policies 
that impede the work of Russian civil society and contravene the 
fundamental rights of freedom of expression, assembly, and association 
in Russia and elsewhere in the region.
    The approach to Russia that I have outlined is not without its 
challenges and internal contradictions. And I will not claim that it 
has yet brought an end to Russian aggression in Ukraine, its 
unmitigated support for Asad in Syria, or its violations of treaties 
and global norms. However, I am convinced that U.S-Allied unity has 
been essential to deterring worse behavior, protecting our own 
security, and bringing the Kremlin to the table on critical issues from 
Ukraine, to Iran, and Syria.
    Mr. Chairman, Ranking Member Cardin, members of this committee, 
thank you for your careful attention to the challenges that today's 
Russia poses. My colleague and friend from the Defense Department, Dr. 
Michael Carpenter, will give you further detail on DoD's efforts to 
mitigate the threats we face.
    Thank you.


    The Chairman. Thank you.
    Dr. Carpenter.

 STATEMENT OF MICHAEL CARPENTER, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE, RUSSIA, UKRAINE, AND EURASIA, U.S. DEPARTMENT OF 
                   DEFENSE, WASHINGTON, D.C.

    Dr. Carpenter. Chairman Corker, Ranking Member Cardin, and 
members of the committee, I appreciate this opportunity to 
update you on the Department of Defense's strong and balanced 
approach to deterring Russian aggression, defending the 
homeland and our treaty allies, and strengthening the 
resilience of our allies and partners to Russian coercion and 
intimidation.
    Russia's interventions in Georgia in 2008 and Ukraine in 
2014 have demonstrated a blatant disregard for its 
international commitments, including the most basic principles 
of the international order, including sovereignty, territorial 
integrity, and the inviability of borders.
    In Syria, Russia has intervened militarily to prop up a 
murderous dictator, allying itself with the Iranian 
Revolutionary Guard Corps and Lebanese Hezbollah. Russia's 
nuclear saber-rattling raises troubling questions about Russian 
leaders' commitments to strategic stability and to norms 
against the threat of use of nuclear weapons.
    With regards to arms-control commitments, Russia's record 
has been mixed. It has violated those agreements that pose 
impediments to its military modernization plans, such as the 
Conventional Forces in Europe Treaty or the Intermediate-Range 
Nuclear Forces Treaty. However, it has honored others, such as 
the New START Treaty, which limits Russian and U.S. deployed 
strategic nuclear weapons to historical low levels.
    Thanks to a robust military modernization program, Russia 
seeks to be a qualitative, if not quantitative, peer to the 
United States across the land, sea, and air and space domains, 
as well as in cyberspace and across the electromagnetic 
spectrum.
    Our approach to countering Russian coercion and aggression 
involves coordinating efforts across the force to strengthen 
our capabilities, posture, investments, and plans. We aim to do 
this without foreclosing the possibility of working with 
Russia, when it is in our interest.
    The most critical element of this approach is ensuring 
effective deterrence to support our most vital mission, defense 
of the homeland, which is reflected in the President's $583 
billion FY 2017 budget request. We are modernizing our nuclear 
forces. This recapitalization program includes a new long-range 
strategic bomber, ballistic-missile submarine, an air-launched 
cruise missile, as well as the Life Extension Program for the 
B61 gravity bomb.
    We are also moving forward the development of new 
technologies to ensure we maintain a qualitative military edge 
over potential high-end adversaries. These include new unmanned 
systems, enhanced ground-based air and missile defenses, new 
long-range antiship weapons, and innovative technologies, like 
the electromagnetic rail gun, lasers, and new systems for 
electronic warfare, space, and cyberspace.
    We will also continue to strengthen our alliances and 
partnerships. I thank Congress for its continued support for 
the European Reassurance Initiative (ERI). As Assistant 
Secretary Nuland has mentioned, since its inception in 2014, 
ERI has enabled the Department of Defense to strengthen our 
deterrence and assurance missions in Europe. The President's FY 
2017 budget proposes quadrupling funding for ERI to more than 
$3.4 billion, which will allow us to increase our force posture 
in Europe by augmenting two permanently stationed Brigade 
Combat Teams (BCTs) with a third rotational armored BCT as well 
as a fourth BCT worth of pre-positioned warfighting equipment.
    With our non-NATO partners, our goal is to improve their 
capabilities and capacity to deal with conventional and 
unconventional threats. In Ukraine, we have provided over $600 
million to enhance security since the start of the crisis. Our 
support has consisted of training programs to enhance Ukraine's 
internal defense capabilities, equipment to support the 
operational needs of its security forces, and advisors to 
advance the implementation of key defense reforms. So far, we 
have trained six companies from Ukraine's National Guard and 
are in the process of training five Land-Forces battalions and 
one Special Operations battalion. While the scale of our 
assistance to Ukraine is unique, we are engaged in similar 
capacity-building efforts with other non-NATO partners, such as 
Georgia and Moldova.
    As Secretary Carter has underscored, the Department's 
policy towards Russia is predicated on a strategic approach 
that is both strong and balanced, leaving the door open to 
Russia to return to compliance with international norms and to 
constructive engagement with the international community. In 
the meantime, in concert with our allies and partners, we will 
continue countering Russian coercion and aggression with a 
posture that is defensive and proportional. In spite of 
Russia's actions, we will also continue to advance our 
strategic vision of a Europe whole, free, and at peace.
    Thank you very much, and I look forward to your questions.
    [Dr. Carpenter's prepared statement follows:]

               Prepared Statement of Michael R. Carpenter

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, I appreciate this opportunity to update you on the 
Department of Defense's strong and balanced approach to deterring 
Russian aggression, defending the homeland and our treaty allies, and 
strengthening the resilience of our allies and partners to Russian 
coercion and intimidation.
    Today's Russia is increasingly revanchist abroad and repressive at 
home. It has demonstrated a blatant disregard for its international 
obligations and commitments, both to other countries and to its own 
citizens. Outside its borders, Russia has acted aggressively in 
violation of the most basic principles of the global order--
sovereignty, independence, and territorial integrity within 
internationally recognized borders--to seek what Kremlin leaders call a 
``sphere of privileged interests'' along Russia's periphery. In Syria, 
Russia has intervened militarily to prop up a murderous dictator, 
allying itself with the Iranian Revolutionary Guard Corps and Lebanese 
Hizballah to prolong a bloody conflict that has gone on far too long. 
Russia's nuclear sabre rattling raises troubling questions about 
Russian leaders' commitments to strategic stability, their respect for 
norms against the threat of use of nuclear weapons, and whether they 
respect the profound caution that nuclear-age leaders have shown with 
regard to the brandishing of nuclear weapons. This behavior is 
irresponsible and dangerous. Nuclear threats will neither intimidate 
NATO nor make Russia a more influential and respected player on the 
world stage.
    With regard to arms control agreements, Russia's record has been 
mixed: it has violated those agreements that pose impediments to its 
military modernization plans, such as the Conventional Forces in Europe 
(CFE) Treaty or the Intermediate-Range Nuclear Forces (INF) Treaty. 
However, it has honored others, such as the New START Treaty, which 
limits Russian and U.S. deployed strategic nuclear weapons to 
historically low levels.
    Across the board, Russia's aggressive actions and flouting of 
international norms have been enabled by a military modernization 
campaign that has benefitted from windfall hydrocarbon revenues over 
the last 15 years, as well as from significant internal restructuring, 
reform, and technological advances. Russia seeks to be a qualitative, 
if not quantitative, peer to the United States across the land, sea, 
air, and space domains, as well as in cyberspace and the lectromagnetic 
spectrum. Russia is also projecting power in all directions: in Europe, 
the Asia-Pacific region, the Arctic, and the Middle East.
    Moscow's military modernization has resulted in the development of 
new capabilities that must be factored into U.S. plans, strategies, and 
our own capability development. Moscow's increasing willingness to use 
its military power for aggressive purposes requires reorienting the 
Department to counter the challenges posed by a revanchist Russia.
            russia's disregard for international principles
    Russia's invasion of Georgia in 2008 and its military intervention 
in Ukraine beginning in 2014 have not only threatened European 
security, but also violated the bedrock principles of the international 
order enshrined in such foundational documents as the United Nations 
Charter, the Helsinki Final Act, and the Charter of Paris for a New 
Europe. Russia has likewise shown a brazen disregard for its own 
political commitments, such as the 2008 ceasefire between Russia and 
Georgia or the February 2015 Minsk agreement. More than a year since 
the Minsk agreement was signed, Russia still has not fulfilled the 
first three commitments listed in that document: ceasefire, withdrawal 
of heavy weapons from proscribed zones, and unhindered access for OSCE 
monitors to the entire territory of the Donbas.
    Russia's disregard for basic global norms, international legal 
obligations, and its own political commitments pose a challenge to the 
future of arms control and confidence building in Europe. In 2007, 
Moscow unilaterally ceased implementing the Conventional Armed Forces 
in Europe (CFE) treaty, effectively withdrawing from the only legally-
binding conventional arms limitation agreement in Europe. While Russia 
is currently in compliance with its obligations under the New START 
Treaty, it is violating the Intermediate-Range Nuclear Forces Treaty 
(INF) by producing and flight testing a ground launched cruise missile 
with a range between 500 and 5,500 kilometers.
    We also have concerns about Russia's implementation of other 
agreements, such as the Open Skies Treaty, since Russia has placed 
restrictions on observation missions over its territory--to include the 
region of Kaliningrad, which borders two of our NATO Allies--that are 
not permitted under the treaty.
    Finally, Russia has undermined confidence and transparency-building 
measures by increasing the number of large-scale snap exercises on its 
territory, which are exempt from reporting under the Vienna Document on 
transparency of military activities within the Organization for 
Security and Cooperation in Europe (OSCE). Russia's dangerous and 
unprofessional intercepts of U.S. aircraft and ships in the Baltic and 
Black Seas further undermine confidence and efforts to promote risk 
reduction.
                    russia's military modernization
    Russia's ambitious 2010 State Armaments Program aims to replace 70 
percent of Russia's military equipment by 2020, prioritizing 
investments in strategic nuclear forces, aerospace defense weapons, 
high-precision conventional weapons, and command and control systems. 
While this modernization effort has been slowed somewhat by Western 
sanctions and the recent fall in oil prices, this will likely delay but 
not derail Russia's modernization goals. Russian ground forces have 
already fielded more than 1,000 new or modernized armored personnel 
carriers, main battle tanks, and artillery systems, primarily in the 
Western, Central, and Southern military districts. Additionally, Russia 
has made significant advances in warfighting technology, especially in 
the areas of precision guided munitions, missile technology, and 
submarine warfare. In the Ukraine conflict, we have seen Russia deploy 
world-class electronic warfare capabilities, and Russia's cyber 
capabilities remain formidable. Finally, Russia's military 
modernization effort has also expanded its anti-access and area denial 
capabilities in an effort to assert control along Russia's periphery in 
the Baltic and Black Seas, the Arctic, the Asia-Pacific rim, and now in 
Syria as well.
    As its military has modernized, Russia has also devoted 
considerable resources to developing asymmetric capabilities. As 
Russian Chief of the General Staff Valery Gerasimov wrote in 2013, 
``The focus of applied methods of conflict has altered in the direction 
of the broad use of political, economic, informational, humanitarian, 
and other nonmilitary measures. All this is supplemented by military 
means of a concealed character, including carrying out actions of 
informational conflict and the actions of special operations forces.''
    Nowhere have these asymmetric capabilities been more readily on 
display than in Ukraine, where Russia has deployed thousands of regular 
soldiers and established command and control support over tens of 
thousands of additional separatist forces trained in Russia and 
equipped by Russia. Russia has honed its abilities to conduct 
information campaigns. In Ukraine, Russia maintains the fiction that 
its forces are not present at all, and that the sophisticated air 
defense systems and thermobaric weapons deployed on the battlefield are 
fielded by volunteers. Russia's $300 million per year state-run 
international TV station, RT, is but one tool at Russia's disposal that 
is used to promote these myths, in addition to internet trolls, so-
called patriotic hackers, and botnets.
                  the department of defense's strong 
                    and balanced approach to russia
    In order to address the challenges of a revanchist Russia, the 
Department of Defense pursues a strong and balanced approach to 
countering Russian coercion and aggression. Our approach involves 
coordinating efforts across the force to strengthen our capabilities, 
posture, investments, and plans to respond to the transregional, multi-
functional, and multi-domain threats we face from Russia. We aim to do 
all this without foreclosing the possibility of working with Russia 
when it is in our interest, for example on counter-proliferation or 
combatting violent extremism. We seek to ensure that the U.S. homeland 
and vital U.S. national interests abroad, including the sovereignty and 
territorial integrity of our NATO and other treaty allies, are secure. 
We seek to ensure a strong, united, and resolute NATO Alliance that is 
capable and postured to deter and if necessary defeat Russian 
aggression. We are also reinvigorating our alliances in East Asia. 
Finally, we seek to develop resilient partners capable of withstanding 
Russian pressure and coercion.
    The most critical element of this approach is ensuring effective 
deterrence to support our most vital mission, defense of the homeland, 
which is reflected in the President's $583 billion budget request for 
Fiscal Year 2017. While new technologies have allowed us to strengthen 
our capabilities dramatically in a number of areas, they have also 
created potential vulnerabilities that must be addressed. That is why 
we are taking actions to ensure our critical assets are protected 
through measures such as hardening and dispersal and by building 
greater resiliency into our command and control networks. We are also 
moving forward the development of new technologies to ensure we 
maintain a qualitative military edge over potential high-end 
adversaries. These include new unmanned systems, enhanced ground-based 
air and missile defenses, new long-range anti-ship weapons, and 
innovation in technologies like the electromagnetic railgun, lasers, 
and new systems for electronic warfare, space, and cyberspace.
    We are modernizing our nuclear forces because they are beyond their 
planned service lives or are reaching the point where they can no 
longer be extended. This recapitalization program includes a new long-
range strategic bomber, ballistic-missile submarine, and air-launched 
cruise missile, as well as the Life Extension Program for the B61 
gravity bomb.
    We will also continue to strengthen our alliances and partnerships. 
I thank Congress for its continued support for the European Reassurance 
Initiative (ERI). Since its inception in 2014, ERI has enabled the 
Department of Defense to strengthen our deterrence and assurance 
missions in Europe. We have expanded several major exercises, to 
include TRIDENT JUNCTURE, the largest NATO exercise in over 20 years, 
with participation from over 30 Allies and partners. We have focused on 
operational effectiveness within NATO by supporting the Readiness 
Action Plan, including contributions to the Very High Readiness Joint 
Task Force, and NATO Force Integration Units along the Alliance's 
eastern flank. We are funding critical U.S. enablers, such as a 
Division Headquarters Mission Command Element, and enhanced allied and 
partner capacity and capability through additional training 
opportunities, such as the inaugural training deployment of F-22s to 
our European Command. The President's FY 2017 Budget proposes 
quadrupling funding for the European Reassurance Initiative, to more 
than $3.4 billion. This will allow us to increase our force posture in 
Europe by augmenting two permanently stationed Brigade Combat Teams 
(BCTs) with a third rotational armored BCT and a fourth BCT of 
prepositioned warfighting equipment.
    With our non-NATO partners, our goal is to improve their 
capabilities and capacity to deal with conventional and unconventional 
threats. Again, ERI has helped us by funding upgrades to existing host-
nation ranges and training sites to increase capacity for use by U.S. 
and Allied forces and to increase the quality of training events with 
key partners, such as Ukraine, Georgia, and Moldova. Our capacity 
building efforts with non-NATO partners are exemplified by the security 
assistance funding that Congress has appropriated for Ukraine, which 
since the start of the crisis in 2014 has exceeded $600 million. Our 
support to Ukraine has consisted of training programs to enhance 
Ukraine's internal defense capabilities; equipment to support the 
operational needs of its security forces; and advisors to advance the 
implementation of key defense reforms. We have trained six companies 
from Ukraine's National Guard and are currently training its 
conventional armed forces as well as its Special Operations Forces. 
Over the coming years, we will continue working with our Ukrainian 
partners to build more capable and professional forces that can defend 
against outside aggression. While the scale of our assistance to 
Ukraine is unique, we are engaged in similar efforts with other non-
NATO partners. For example, since Russia's invasion in 2008, Georgia 
has received over $481 million in bilateral security assistance 
funding. Efforts such as these will continue to improve our partners' 
resilience against foreign pressure and coercion.
    It is safe to say that Russia has taken notice of our efforts. 
However, despite its false accusations that the United States and our 
NATO Allies are in violation of the NATO-Russia Founding Act, our 
efforts are wholly defensive and proportionate in nature, and 
constitute a direct response to Russia's aggressive actions to 
undermine the security of its neighbors.
                               conclusion
    Chairman Corker, Ranking Member Cardin, and members of the 
committee, we expect that Russia will continue to modernize its 
military, seek to expand its influence along on its periphery, and 
operate in aggressive ways. The Department of Defense will continue to 
ensure that the U.S. homeland and our vital national interests abroad 
are protected and that we support countries' rights to make their own 
security and economic choices, free from outside coercion and 
intimidation. As Secretary Carter has underscored, United States policy 
toward Russia is predicated on a strategic approach that is both strong 
and balanced. In concert with our allies and partners, we will continue 
countering Russian coercion and aggression with a posture that is 
defensive and proportional. In spite of Russia's actions, we will also 
continue to advance our strategic vision of a Europe whole, free and at 
peace.
    Thank you very much, and I look forward to your questions.


    The Chairman. Thank you very much.
    We have votes at 4:00 o'clock. We have two panels. So, I 
have asked Bertie to put 5 minutes on the clock and ask that 
everybody try to stay within that time frame. I am just going 
to ask one question and move on to Ben.
    Secretary Nuland, we met briefly prior to this hearing. 
There is a narrative out there that the U.S. and NATO pressured 
Russia by expanding to areas obviously adjacent to their 
border, and that is what has generated some of the discord, if 
you will, that exists between our countries. You were involved 
in those negotiations extensively. Would you give us a brief 
summary of your view of that narrative?
    Ms. Nuland. Thank you, Senator.
    I completely reject this narrative of grievance that it is 
somehow our fault. As you know, NATO is a defensive alliance. 
As we said to Russia at every stage in the expansion of NATO, 
we are not a threat to Russia in any way. And, as you know, as 
we--through the various expansions of NATO, we sought also to 
deepen NATO's own relationship with Russia, first with the 
creation of the Permanent Joint Council, and then the NATO-
Russia Council. I was, as you said, active in those efforts, 
both in negotiating and as Ambassador to NATO, to try to 
implement those agreements. I, frankly, think that Russia did 
not take advantage of the opportunity that NATO put before it 
for cooperation. We really could have gotten to a place with a 
different attitude in the Kremlin, where much of the 
affirmative security that we were seeking in Europe and we were 
seeking against terrorists and with regard to dangerous Iranian 
behavior could have been done jointly in that structure, but we 
could never get there because of old efforts.
    Also, in the aught years, we reached out to Russia quite 
strongly, the U.S. did, to try to work together on missile 
defense programs, to try to cooperate, and the Kremlin was 
never willing or able to take us up on those opportunities.
    So, I regret very much that we are where we are, but I 
really do think that we tried very hard, on the U.S. side, 
across three administrations of both parties, to reach out. And 
we will continue to try to do that, as I said.
    The Chairman. Thank you.
    I am going to reserve the rest of my time for interjections 
and turn to our ranking member.
    Senator Cardin. Thank you, Mr. Chairman.
    To defend ourselves from Russia's behavior and aggression, 
it would be nice to know why they are doing what they are 
doing. Since 2008, they have used their military in an 
aggressive way to violate the sovereignty of other countries. 
So, can you just share with me your thoughts as to what 
Russia's game is here? Are they trying to get a greater Russia? 
Are they trying to take on more territory under the umbrella of 
Russia? Are they trying to recreate the Soviet Union? What is 
their game plan, here?
    Ms. Nuland. Senator Cardin, I would simply say that, as a 
U.S. official, I do not think it is particularly productive to 
try to speak for Russia, but I would just highlight some of the 
things that Russia's President, himself, has said. I would 
point to his speech at the Munich Security Conference in 2007, 
where he very much regretted the loss of control over Soviet 
space, the loss of control over the--the failure--the end of 
the Soviet Union, et cetera. So, clearly that is something on 
his mind. But, I would defer that question to Russians, 
frankly.
    Senator Cardin. Let me say it is not safe to be in the 
political opposition these days in Russia. What is the 
administration doing to help political pluralism in Russia in 
regards to those who are opposing the Putin regime?
    Ms. Nuland. I assume that is for me, Senator?
    Senator Cardin. Either one.
    Ms. Nuland. Yeah.
    Senator Cardin. I am open to a good answer.
    Ms. Nuland. Well, obviously we continue to speak out 
strongly whenever Russia takes moves to further constrain the 
space for the nongovernmental organizations, to restrict human 
rights, as I said in my opening, to constrain press freedom. We 
have worked with Vladimir and others who are seeking a 
different future for Russia. We have programs both inside 
Russia and outside Russia to work with those Russian activists 
who want to work with us to try to strengthen rule of law, to 
try to strengthen a free press. We have a large number of 
Russian journalists who have actually fled the--fled Russia 
now, who are working with us and with others in Europe to try 
to ensure there is independent Russian-language news going back 
in to the country. We also work on LGBT rights and other things 
inside Russia with those who want to work with us.
    Senator Cardin. I will follow up with some questions for 
the record in regard to this, but let me move to the Arctic for 
one moment. Climate change is changing the Arctic with the ice 
melts. Russia has 4,000 miles of Arctic coastline. It is my 
understanding they have established six new bases in the--north 
of the Arctic Circle, and they have deployed certain weapon 
systems there. What are we doing to respond to Russia's 
militarization of the Arctic?
    Dr. Carpenter. Well, you are absolutely right, Ranking 
Member Cardin, that Russia has invested significantly in 
capabilities in the Arctic over the last several years, 
including trying to create infrastructure in places like Novaya 
Zemlya and other parts of the Russian Arctic. We seek to 
preserve the Arctic as a space for cooperation on scientific 
issues, as we have, in fact, with Russia in the past, working 
on things like black carbon and the danger that it poses to the 
Arctic environment, as well as other issues. However, we take 
very seriously Russia's advancing capabilities in the Arctic, 
including the possibility that, over time, Russia will be able 
to create, in the Arctic elements of Anti-Access/Area Denial 
(A2/AD) bubbles, if you will, that will preclude other nations 
from being able to enjoy their freedom of navigation in parts 
of the Arctic. And so, we are investing, and the President's FY 
2017 budget invests in the types of capabilities that will 
allow us to augment our force posture in the Arctic and also 
develop the sorts of capabilities that will help us to ensure 
freedom of navigation and freedom of flight for our troops in 
that region.
    Senator Cardin. And I take it we are working with our other 
Arctic partners to try to minimize the potential, here, of 
conflict, but it does seem like Russia is investing an awful 
lot in territorial claims in the Arctic.
    Dr. Carpenter. Well, Senator, we do have a good working 
relationship with Russia in the Arctic Council, where we try to 
preserve, as I said, those areas of cooperation that are 
ongoing, including environmental cooperation. But, also, 
importantly, our Coast Guard has search-and-rescue agreement 
with its Russian counterpart that has worked very successfully 
over the years. So, we seek to preserve these areas of 
cooperation, but, at the same time, develop our own military 
capabilities so that we are not caught off guard and so that we 
are keeping track with the types of investments that Russia is 
making.
    Senator Cardin. Thank you.
    I am going to be respectful of the Chairman's 5-minute 
clock, but I am going to be asking other questions for the 
record, including questions on Russia's aggressiveness in 
revising history and using its communications to try to change 
the narrative of reality, and how we are trying to counter 
that. Propaganda can have a pretty strong impact, and part of 
our strategies must be to make sure people understand what are 
the facts. And I would welcome your response for the record in 
regards to those issues.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    You know, with the debt crisis we have got and the 
popularity of your hearings, I think we might start charging 
tickets here. [Laughter.]
    Senator Perdue. In all seriousness, though, I really thank 
you for this, and I hope we will have many more haerings like 
this about Russia and China. I think the rise of these 
traditional rivals are really concerning to people back home.
    I would like to talk, Dr. Carpenter, first about Russia, 
and I have got a second followup on the hybrid warfare. But, I 
want to talk about Georgia for a minute, because I think--I 
want to know what lessons we think we have learned after 8 
years. The Russians have had a history of creating these frozen 
conflicts, where, without a peace treaty, everything seems to 
be going in the normal, and yet I know next year, in one of 
their regions, I think it is Shevali actually, they are rumored 
to be having a referendum about joining Russia again. So, I 
mean, this is a pressure that Russia keeps putting on there, 
and I am very concerned. James Clapper, the Director of 
National Intelligence, testified that the nation of Georgia, 
despite all its progress on Western integration, domestic 
reforms, is at increasing risk from Russian aggression and 
pressure. I visited Serbia last year and met the Georgian 
Defense Minister, Tina Khidasheli, and heard her concerns about 
the ongoing pressure and so forth in Georgia. What lessons have 
we learned, in terms of standing up--I know that the Georgia 
National--I mean U.S.--has--National Guard--has just had a 
forward deployment there. I would like to get some feedback on 
that. And also, what are we doing now, from a DOD standpoint, 
to put pressure on Russia, relative to Georgia? And what have 
we learned there, relative to Crimea and the Ukraine?
    Dr. Carpenter. Well, thank you, Senator. And I completely 
agree with your assessment that Russia is continuing to place 
pressure on Georgia through a variety of different means. 
Russia currently occupies about 20 percent of Georgian 
territory in Abkhazia and South Ossetia, but----
    Senator Perdue. But, a third of the population, right?
    Dr. Carpenter [continuing]. It is a significant portion of 
the population, and those administrative boundary lines that 
Russia maintains continue to shift, especially in the South 
Ossetia region, claiming ever more pieces, increments of 
Georgian territory. Russia is also putting pressure on Georgia 
in a variety of other ways, and including the proclaimed desire 
by the de facto leader of South Ossetia to have a referendum on 
integration with Russia.
    Our goal, since the Russian invasion of Georgia in 2008, 
has been to build Georgia's resilience and reduce its 
vulnerabilities to Russian coercion. So, we have spent about 
$480 million on security assistance in Georgia since the 
crisis. Just recently, 2 weeks ago, I was in Tbilisi to 
participate in the Noble Partner exercise that we conducted 
with Georgia, where we had about 650 U.S. troops alongside 
about 500 Georgian troops and about 150 U.K. troops, where we 
had airborne jumps into Georgia, and we had Abrams tanks as 
well as Bradley infantry fighting vehicles on the ground, 
helping them to develop their self-defense capabilities.
    Over the course of the last 10 years, Georgia has 
contributed mightily to our NATO efforts overseas, including 
especially in Afghanistan, where, up until recently, they have 
been the second-largest troop contributor, after the United 
States, with 850 troops. And, in fact, they have suffered about 
31 casualties, if I am not mistaken, about 282 wounded. So, 
they have had major sacrifices there. And a lot of our training 
program over the course of the last decade has been focused on 
preparing Georgian troops for these overseas deployments, 
including Iraq and then, later, Afghanistan. Now we are 
starting to position ourselves to devote more attention to 
training up Georgia's troops for their self-defense 
capabilities.
    Senator Perdue. Do we have permanent troops on the ground 
in Georgia?
    Dr. Carpenter. We do not plan to have permanent troops on 
the ground, but we do plan to increase the tempo of our 
exercises and training with Georgia.
    Senator Perdue. What lessons have we learned, relative to 
Georgia, as it relates to Crimea and the Ukraine?
    Ms. Nuland. Well, Senator, I think the first one is the one 
that Dr. Carpenter highlighted, which is that we, in our 
security partnership with Georgia, spent a lot of the last 
decade helping Georgian forces prepare for expeditionary 
deployments to Afghanistan, et cetera, and probably not enough 
focus on strengthening Georgia's own homeland security, which 
is what we are now trying to correct, and not just in U.S./
Georgia relations, but also in NATO/Georgia relations.
    The other lesson is the abiding one, which has significant 
applicability for Ukraine, which is that the best antidote to 
Russian pressure is a successful increasingly European 
democratic Georgia or Ukraine, and to take maximum advantage of 
the association agreements that both of these countries have 
with Europe. So, that is why all of the programs that we manage 
from the State Department are designed to squeeze out 
corruption, improve justice system, et cetera.
    Senator Perdue. Well, with due respect--and I have all the 
respect in the world for you, Assistant Secretary. I have 
watched you--and I am sorry, I am over time--but, I hate to--I 
walk away--I have been over there quite a bit, and I walk away 
with a feeling that, when we deal with Russia and Ukraine, we 
deal with Russia and Georgia--and I do not mean to belittle 
this, but it sounds like it is their fault. It is Ukraine, it 
is Crimea, it is Georgia's fault. Because they are not quite as 
Western as we want them to be, therefore we have not been able 
to do everything we need to do to help them. I know the--I know 
we have got corruption issues in Ukraine. I know we have got 
westernization issues in Georgia. But, we have got an invasion 
that occurred, and sovereign territory being possessed, in 
violation of the 1972 agreement with Russia. And yet, we are 
talking about all this other stuff at the same level of the 
invasion issue. So, I am sorry to take issue with that, but I 
really think that they are two different----
    Ms. Nuland. No question. We cannot blame the victim. I 
agree completely, Senator. We have to strengthen these 
countries so that they can resist economically, politically, in 
security terms.
    Senator Perdue. Sorry. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    Assistant Secretary Nuland, I had an opportunity to meet 
with Vitaly Churkin, the Russian Ambassador to the United 
Nations, earlier this year. And you referenced the difficult 
balance we try to strike between cooperating with the Russians 
on a number of important areas, some of our bilateral treaties 
containing Iran's aggressive nuclear weapons program and other 
areas where clearly we have strongly discordant interests and 
where we are working to strengthen our allies, whether in the 
Baltics or Ukraine or NATO, in the face of Russian aggression. 
I came away from a meeting with Ambassador Churkin convinced 
that they will do everything they can to protect Iran and their 
ballistic missile launches from action by the Security Council. 
Am I wrong? What leverage do we have to sustain Russian 
engagement in a concerted effort to put pressure on Iran to 
stop some of its activities outside the JCPOA that really are 
destructive to Iran's intentions or expressed desire to rejoin 
the community of nations?
    Ms. Nuland. Senator, I think you are not wrong in your 
assessment that Russia has only joined us in joint work against 
a nuclear threat from Iran. Having worked with Russia over many 
decades to try to encourage them to understand that that 
nuclear threat was a threat to Russia, too, I would say that 
that is the number-one trajectory we have to work with regard 
to the missile threat now, that Russia should not be so secure 
in its confidence that it could not be on the other end of said 
missiles, and therefore, it has an interest in limiting or 
stopping Iran's missile program. That is where we have to work, 
and we are continuing to try.
    Senator Coons. I would be interested, Dr. Carpenter, as 
well, in hearing whether, in your view, the European 
Reassurance Initiative is genuinely working and whether our 
allies in the Baltics are confident in our commitment to their 
security, and what else you think we, here in the Congress, can 
and should be doing to provide support across a whole range of 
areas of engagement. As the Senator mentioned, there are these 
frozen conflicts in Georgia and Moldova, and now, for at least 
the time being, in the Ukraine. It is my hope--and you have 
both worked very hard on this--that our EU allies will be 
advancing and continuing sanctions and continuing to engage 
with us. What more can and should we do to strengthen our 
Baltic allies?
    Dr. Carpenter. Well, thank you for that question, Senator. 
I think the ERI is working well. And I think when we begin to 
implement the 2017 requested portions of ERI, we will be 
dramatically increasing our force posture on the eastern flank 
of the alliance, which will have a significant deterrent impact 
on Russia. It will also, at the same time, assure our allies 
that we have force posture, that we have genuine high-quality, 
high-end warfighting equipment in place as necessary in the 
event of a crisis.
    I think the other piece to this that we cannot neglect is 
working with our NATO allies to ensure that those allies also 
have skin in the game. And so, as we talk about augmenting 
NATO's presence in these countries, a lot of what we are doing 
under ERI is bilaterally with each of these allies in the east. 
But, as we talk about NATO's footprint, I think we will be in a 
better place to have other allies with skin in the game, as I 
said, and with additional assets that they can bring to bear, 
which they uniquely possess because of their proximity to some 
of these countries, that will greatly aid in deterring Russia 
in case it thinks about potential aggressive action in any one 
of these countries.
    Senator Coons. And, Assistant Secretary Nuland, my last 
question. As we look forward to the NATO Summit, have we done 
everything we need to, to brace up and shore up and fully 
engage our NATO allies to provide that deterrent impact so that 
we then have a chance at meaningful diplomacy? And how do you 
assess Putin's willingness to engage in rational diplomacy 
around the Ukraine conflict?
    Ms. Nuland. Two big questions. Just to add to what Dr. 
Carpenter has said, on the Baltic states, two pieces, here. As 
I said in the opening, we, over the past 2 years, have had sort 
of an ad hoc approach to put a patchwork together of land, sea, 
and air presence in the Baltic. What you will see at the Warsaw 
Summit is a sustained approach so that these allies can be 
confident that they will have regular, persistent support, and 
to make that much more routine and normal, to create joint 
headquarters in all of these countries, and to ensure we can 
get there.
    The other piece on the Baltics that I think deserves 
highlighting is that we have worked on the spectrum of their 
resilience, so not just hard military, but also border 
security, integrated communications across domestic agencies, 
et cetera. We have had our Homeland Security folks out there, 
and we have really made pretty good progress. But, we need 
other allies to be as vigorous and rigorous in their support, 
and we are working on that as we head towards Warsaw.
    With regard to Russia's readiness, willingness to negotiate 
with regard to Ukraine, there is an agreement on the table, as 
you know, the Minsk Agreements, which call, first, for a full 
cease-fire, access for the OSCE across eastern Ukraine, then a 
political package of decentralization for the people of Donbas, 
and then the withdrawal of weapons. So, the French and Germans 
have taken the lead in trying to see that implemented. We have, 
in the last month and a half, greatly increased the role the 
U.S. is playing in parallel, working with both Kiev and Moscow. 
I think our concern is, whereas we are making some progress now 
on the political package for the Donbas, we have not made the 
kind of progress that we need to see on the security piece, and 
we are going to have to do a lot more to push Russia and the 
separatists to end the violence to allow the OSCE fully in.
    Senator Coons. Thank you.
    And, Mr. Kara-Murza, thank you for your willingness to 
testify here today, as well.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Secretary Nuland, good to see you again.
    I wanted to talk about the Intermediate-Range Nuclear 
Forces Treaty. Russia has been violating the INF Treaty for 
quite some time. It was finally made official in public in 
2014. In response to questioning on the matter, the 
administration said they are exploring their, quote, ``economic 
countermeasures in response to the violation.'' You know, in 
the President's speech back in April of 2009 in Prague, he 
committed to ridding the world of nuclear weapons. He said 
that, in order for a nonproliferation regime to work, he said 
violations must be punished, and then he said, ``Words must 
mean something.'' President Obama, ``Words must mean 
something.'' This administration has now said, for years, that 
they are considering economic sanctions against Russia for its 
violation of the INF Treaty. Is Russia still in violation of 
that treaty? And when is the administration finally going to 
get around to punishing this violation of the treaty?
    Ms. Nuland. Thank you, Senator Barrasso--Dr. Barrasso, as I 
like to call you.
    As you have said, we have found Russia in violation over 
the last 2 years. We are engaged in discussions, negotiations 
with Russia to try to bring them back into compliance. We are 
also working with allies to bring pressure to bear on Russia 
with regard to the violations. We are also working 
intensively--and this is part of our package for the Warsaw 
Summit--to ensure that NATO's own deterrent, including its 
nuclear deterrent, is updated and strong. We are--and this is 
about all I can say at this point, in an open hearing--we are 
reviewing and working on a full range of options--a full range 
of options--to make sure that Russia cannot gain any 
significant military advantage from any system that they might 
develop outside of the treaty. And we are also investing in 
U.S. technologies that are designed to deter and defeat any 
Russian provocations. But, I think going further than that, we 
would have to be in another setting.
    Senator Barrasso. Yeah, but just in terms--in that line of 
thought with what we could do, you know, the Open Skies Treaty, 
according to the State Department reports on arms-control 
compliance. Russia is failing to meet its obligations on the 
Open Skies Treaty. It is restricting access to some of its 
territories. It has shown a repeated pattern of violating its 
arms-control obligations, including, as we have just talked 
about, the Intermediate-range Nuclear Forces. So, it is now 
asking the Open Skies Consultative Commission for permission to 
use more powerful collection capabilities on flights over the 
United States. You know, it--to me, it says that U.S. should 
not be approving such a request for these upcoming--these--
those requested sensors. At least make it contingent upon 
Russia first coming into full compliance with the Open Skies 
Treaty and the INF Treaty. And I would just be interested in 
your thoughts on that.
    Ms. Nuland. Well, you are not wrong that Russia has been 
restricting some overflights. There is a list of places--
Kaliningrad, low altitude over Moscow, et cetera--where they 
have been restricting Open Skies flights. They had been 
restricting Open Skies flights over Chechnya in the last couple 
of weeks. They have reopened that territory, in part due to the 
pressure we have been able to bring to bear from other Open 
Skies Treaty partners, particularly the Europeans, who highly 
value this. I think you know that the first round of Russian 
requests for higher-definition cameras were within the 
constraints of the treaty. And so, from that perspective, were 
we to unilaterally restrict those flights, we could just expect 
they would do the same to us, and that would make us less 
capable, ourselves.
    With regard to their more recent requests for really potent 
visuals, we are still reviewing that internally. I do not know 
if Dr. Carpenter has anything to add on that. We can certainly 
brief you in a closed setting on that, as well.
    Senator Barrasso. Okay.
    Doctor?
    Dr. Carpenter. Well, I would just add that--to answer your 
question, Senator, that, yes, Russia is in violation of its INF 
Treaty requirements not to produce, deploy, or flight-test a 
ground-launched cruise missile with a range between 500 and 
5,500 kilometers. We are looking at this more broadly in the 
context of Russia's aggressive behavior. And so, we are taking 
a number of steps in that broader context, to include expanding 
and modifying air-defense systems, together with our allies. We 
are also looking at investments, together with our allies and 
partners, in advanced capabilities that will allow us to defend 
against complex cruise-missile threats.
    On the Open Skies issue, I would just associate myself with 
everything that Assistant Secretary Nuland has said. The treaty 
process already provides a way forward for certification of the 
electro-optical camera that is now being used as wet film goes 
out of business, essentially. And so, our ability to use this 
same sensor down the road is impacted by the decisions that we 
take today.
    Senator Barrasso. Yes, that is the followup, in terms of 
security risks, and, Secretary Nuland, you said you wanted to 
take additional security risks for our country on this, are 
there additional security risks and vulnerabilities if, in 
fact, these new types of sensors are allowed on Open Skies 
aircrafts, for us?
    Ms. Nuland. Senator, I am comfortable with the decisions 
that we have already made. We are reviewing exactly this set of 
issues as we look at the next set of requests from Russia.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Madam Secretary, for some context to my question, let me 
summarize the current events, as I see it.
    As Russia's September 18th primary--parliamentary election 
draws closer, the Kremlin is preparing the groundwork for 
another victory of Putin's United Russia Party. The current 
Duma, itself a product of a fraudulent 2011 election, has 
rubber-stamped a slate of new laws targeting the electoral 
process from impeding, campaigning, and observation to 
authorizing police forces to open fire on protesters. The 
state-sponsored ballot-stuffing that sparked those Moscow 
protests in 2011 has now evolved. The Kremlin and the Duma are, 
instead, barring opposition from registering now. Pro-
government vigilantes have set up attacks on opposition. Putin, 
himself, is repeatedly implicated in political assassinations 
and assassination attempts, as with Boris Nemtsov, shot outside 
the Kremlin--dead outside of the Kremlin, or Mr. Kara-Murza, 
who is a witness here, who was poisoned near to death. The 
flames of nationalism are burning as bright as Putin's imperial 
adventure, seem to be part of a campaign to make Russia great 
again.
    Whether in Ukraine, where, with the exception of 
congressional sanctions that I and others have offered and 
passed through this committee and the Congress passed in 2014, 
the administration has done relatively little to hold Russia 
accountable in meaningful material ways, or in Syria, where we 
have been maneuvered into having to coordinate with Russian 
forces who neither share common interests nor pursue common 
goals while hundreds of thousands have died and millions have 
been displaced, or at the U.N., where they resist sanctions on 
Iran for missile violations, in violation of U.N. Security 
Council resolutions, which they supporting, or their violation 
of the INF Treaty for which 2 years we have had discussions, 
but no consequences.
    I worry that the message that Putin must be taking from our 
responses is that his limit-testing aggression and opportunism 
is the right approach, particularly when there are relatively 
negligible consequences, at the end of the day, for all of the 
things that I have listed, among others. And this is certainly 
a dry run for the presidential 2018 presidential elections in 
Russia, where we would certainly expect Putin to continue to 
take advantage of the opportunities that he sees, whether that 
is the arbitrary violation of international borders, treaties, 
human rights compacts, or whatever he decides that suits his 
personal interests at the time.
    I am trying to get a grasp of--we pushed the Ukrainians 
really hard to meet their four pillars, which you testify here 
very hard, but, on the security side of the Minsk Agreement, we 
are failing dramatically, but we keep pushing the Ukrainians. 
We do not even talk about Crimea anymore. That is, I guess, 
gone. We have this violation of the INF Treaty, yet there are 
no consequences 2 years later, despite whatever engagement and 
conversations are to bring them back. Why are we not more 
aggressively engaging in tools of diplomacy that can help us, 
hopefully, have Russia understand that there are consequences? 
Why are we not using the OSCE, which has--clearly, they are a 
signatory to, and have clear violations. Why are we not looking 
at more visa denials? Why are we not looking at more frozen 
accounts? Why are we not looking at more Magnitsky listings? I 
do not get it. Because if everything--if what you are doing--
and I heard your testimony, and I read it before I came, and I 
wanted to listen to it again--is still leaving you in the place 
that we are at, why is it that we do not seem to step up 
towards the challenge that we have?
    Ms. Nuland. Senator, I would not take issue with anything 
that you have said here with regard to the constraining of 
space inside of Russia and ramp-up to the elections and Russian 
external behavior. I would take issue with whether Russia is 
paying a price for this. We talked about the economic sanctions 
that this committee has supported over the last 2 years. I 
think Russia has paid a steep price, not simply through 
sanctions, but also through its over-dependence on oil. We now 
have Russians--you know, 13.4 percent of Russians living below 
the poverty line. We have a GDP contraction of 3.7 percent in 
Russia in 2015 alone.
    Senator Menendez. But, let me--I have 18 seconds. Why not--
answer my core question--why not more visa denials, why not 
more Magnitsky listings, why not more refusal to U.S. banks, as 
you--we will hear a witness who says, ``Do not let his ill-
gotten gains of his cronies end up in the United States''--why 
are we not pursuing all of those OSCE--why are we not doing 
that?
    Ms. Nuland. Well, we are working on all of those things. As 
you know, every year we add names to the Magnitsky list. The 
Magnitsky legislation is relatively constraining. It has to go 
to that particular case. But, we have denied a number of visas 
in the context of Ukraine sanctions, in the context of Syria 
sanctions, and we are continuing to look at what more we can 
and should do.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, both of you, for being here today.
    And I want to follow up on what Senator Menendez just 
talked about, and that is consequences of bad behavior. This 
past week, a number of us had the opportunity to visit 
southeast Asia, where we visited with ministers from Singapore, 
government leaders in Myanmar, to new leadership in Taiwan, 
participated in the Shangri-La dialogue, where we visited with 
leaders from around the world who participated in that defense 
dialogue, including our own Secretary of Defense, Ashton 
Carter. But, when meeting with foreign governments, when 
meeting with leaders, they talk about U.S. leadership, and they 
talk about the positions that we are trying to secure, 
positions that we are fighting for, like the South China Seas. 
And when we are asking them to take a tough line, perhaps on 
something like the South China Sea, they see our lack of 
consequences in other circumstances and question whether or not 
they should take a hardline position against a powerful nation 
or a situation such as their neighbor, China. And so, we cannot 
look at things in isolation as how we are responding to Russia, 
how--because it affects what is happening and what is on 
people's minds in Asia--in southeast Asia, excuse me--in 
Singapore. It is--people around the globe are looking at our 
lack of response and lack of consequence to--and deciding 
whether or not the U.S. is somebody that they should hitch 
their wagon to, so to speak, or not. And I think that is the 
great challenge.
    And so, whether it is Crimea, Ukraine, INF, Syria, Georgia, 
they do not see the consequences. And when we ask them to take 
a tough position, they do not see the reason why they should, 
because they know the United States is not going to follow 
through. And that is hurting our leadership around the globe. 
And it is hurting our ability to rally our allies to our side 
and to create the kind of rules-based order that we need to in 
order to counter the behavior of China, the behavior of Russia.
    And so, I guess, a couple of questions. In your testimony, 
you state that, quote, ``We have worked with Russia to remove 
Syria's declared chemical weapons, to prevent Iran from 
acquiring nuclear weapons, to contain the nuclear threat 
emanating from the DPRK, North Korea, and to negotiate and 
implement the New START Treaty.'' Obviously, I think you would 
agree that the nuclear threat in North Korea has not been 
contained. Is that correct?
    Ms. Nuland. It has not.
    Senator Gardner. And so, what is it that we are actually 
getting Russia to accomplish? Are they following through with 
the implementation of United Nations Resolution 2270, the 
sanctions bill against North Korea?
    Ms. Nuland. As you know, in the context of these--this 
latest round of sanctions, we had difficult conversations with 
Russia, but we were able to get Russia to join a deeper regime 
against North Korea than we have had in the past. We will--you 
know, and they had particular interests that they wanted 
managed there. But we did better than some expected because of 
the pressure from the Asian allies.
    Senator Gardner. Are they completely implementing 2270?
    Ms. Nuland. I, frankly, do not have the details. My 
understanding is that, in the broad strokes, they are. Whether 
they are, in detail, I would have to do more work.
    Senator Gardner. And what is their position on THAAD in 
South Korea?
    Dr. Carpenter, if that is more appropriate, to you.
    Dr. Carpenter. Russia has traditionally opposed the 
advanced air-defense capabilities that we provide to allies, 
both in Europe as well as in East Asia.
    Senator Gardner. And what is their position--let us just 
say, you know, if they are teaming up with China on THAAD and 
our efforts to contain the nuclear threat from North Korea, 
what are they doing in other areas? Are they teaming up with 
China on the freedom of navigation operations, as well, and 
opposing our efforts to provide rules-based governance 
according to international law?
    Dr. Carpenter. Senator, I do not see them teaming up with 
China on freedom of navigation, although clearly the Chinese 
and other great powers are watching to see what Russia is able 
to get away with----
    Senator Gardner. But Russia has not supported our 
operations in the South China Sea, have they?
    Dr. Carpenter. Has Russia supported our----
    Senator Gardner. Correct.
    Dr. Carpenter. No.
    Senator Gardner. Okay. So, they are taking the same 
position as China, then, on freedom of navigation operations.
    Dr. Carpenter. Senator, I would characterize it as they 
have not taken a vocal position, one way or the other. They 
have largely remained in the background on this.
    Senator Gardner. Dr. Carpenter, while I am with you, I 
guess I would just follow up, and we can have that 
conversation, as well, in terms of what we are doing to push 
Russia to implement 2270 and to agree to a true commitment to a 
nuclear-free peninsula.
    I want to talk about a report that came out several months 
ago. And I am sure you are familiar with it. This is the RAND 
report. Looking at an article here that says, ``Russian 
invasion could overrun NATO in 60 hours.'' This article was 
published in February of 2016. That is about the time of the 
report. I am sure you are familiar with this report. Has this 
assessment changed, in your mind, since this report was first 
published?
    Dr. Carpenter. Senator, I would say that Russia clearly 
possesses a time-distance advantage, if it were to decide to be 
an aggressor in the Baltic states, and that that poses certain 
limitations that we would have to overcome, in terms of our 
ability to defend our NATO allies. We are making the 
investments through ERI and otherwise precisely to have forces 
pre-positioned, along with warfighting equipment so that we are 
better able to deter Russian aggression in the first place.
    Senator Gardner. But, I mean, has this assessment, in your 
mind, changed substantially or substantively since this report 
came out in February?
    Dr. Carpenter. Senator, we have done a number of our own 
internal exercises and reviewed our plans, and we have looked 
very carefully at the geography of the Baltic Basin and 
precisely that advantage that Russia possesses, and we are 
taking steps to try to mitigate.
    Senator Gardner. What you are saying is, basically, nothing 
has changed since this report, substantively. And are you 
saying that your reports agree with the assessment of the RAND 
report?
    Dr. Carpenter. Senator, I would say that, by the end of 
2017, when we implement all of the ERI funding that is coming 
online, that we will be much better poised to address the 
challenges, and much better poised to deter Russian aggression 
in that region than we are now. I do not know that we have made 
significant----
    Senator Gardner. So, the end of 2017 until we are better 
poised to deter the Russian threat.
    Dr. Carpenter [continuing]. Well, Senator, we are pre-
positioning equipment on a sort of ongoing basis. I do not know 
that we are significantly more advanced now than when the RAND 
report came out, but I am confident, by the end of 2017, when 
we have an additional Armored Brigade Combat Team worth of 
force posture on the eastern flank of the alliance, that we 
will be.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here and for your ongoing 
efforts.
    Part of Russia's campaign in eastern Europe, in the Baltics 
and Ukraine, has been to produce disinformation. They are 
spending a lot of money on RT television, in lots of other 
ways, to get their message out into parts of eastern Europe. 
Can you talk a little bit more about what we are doing to 
respond to that propaganda? I do not know which one of you 
wants to address that.
    Ms. Nuland. Thanks, Senator.
    Well, as you know, this has been a line of effort that 
been--we have been working on very hard with members of the 
Congress and the Senate since 2014. The total appropriation 
now--State Department, USAID, BBG, Broadcast Board of 
Governors--on the U.S. side is about $100 million to counter 
Russian propaganda. That money, as you know, goes for a number 
of things, from clean, honest, Russian-language programming 
that BBG is now putting out every day, the expansion of Radio 
Free Europe, Radio Liberty, VOA, to about $88 million that we 
use in State Department and AID money to support civil society, 
independent media, journalist training, including outside 
Russia for those Russian journalists who have fled. We are also 
doing quite a bit to bolster programming inside Russia, to the 
extent that we can. But, this pales in comparison to the 400 
million, at least, that Russia is spending, and, frankly, to 
the levels that we spent during the Cold War on these kinds of 
things, which were over a billion dollars a year in the days of 
old USIA.
    Senator Shaheen. And can you talk a little bit about the 
substance of what we are doing and who we are engaging in 
working with us on the content? Is it journalists who--or 
reporters who have fled Russia, who are helping us look at what 
kind of messages we are using? Are there others who are engaged 
in that effort with us?
    Ms. Nuland. I will be 30,000 feet, if you will allow me, to 
protect those who participate in these programs, many of whom 
depend on that protection.
    Senator Shaheen. Right.
    Ms. Nuland. But, we conduct training programs at various 
locations in Europe for journalists who have either fled or who 
have come out to get training and are planning to go back in. 
We support a number of Russian-language news organizations in 
the Baltic states and in other periphery countries that are 
designed either to address Russian-speaking populations in 
those home countries and counter Russian propaganda or to beam 
back in. We obviously support Russian-language programming in 
Ukraine, which has some impact also in Russia, as well. And 
then this good portion that goes to BBG and VOA programming, 
which is U.S. Government free news content. We also do quite a 
bit to pull together efforts of the EU, U.K., Baltic states, 
central Europeans, through consultation, through sharing of 
programming, et cetera.
    Senator Shaheen. Thank you.
    You raised Ukraine, and obviously there have been a number 
of questions around what is happening in Ukraine and Russia's 
failure to comply with Minsk II. And there was a period where 
there were some countries in Europe that did not seem to 
appreciate the extent to which this was a failure on Russia's 
part, and viewed it more as a failure of Ukraine. I wonder if 
you can talk about where we are with respect to how the EU is 
viewing Minsk II at this point and what more we can do to put 
pressure on Russia to comply.
    Ms. Nuland. As I said in my opening, Senator, I think we 
are cautiously optimistic that the EU countries will again roll 
over sanctions at the end of June because they see what we see, 
namely that Minsk is far from being implemented on--in any of 
its components. We have intensified our own diplomacy after the 
President's meeting in Hanover with President Hollande and 
Chancellor Merkel to support what those countries are doing to 
try to get Minsk fully complied with. They are pushing on two 
fronts, both to negotiate a fair political decentralization 
deal for Donbas, which does not cross over the line of creating 
a cat's paw or a permanent enclave of Russia in Ukraine. At the 
same time, we are trying to get the commitments that Russia and 
Donbas made to the OSCE for full access, pullback of weapons 
implemented. As I said at one point, it is this security 
package that is not being implemented well. We have had a sharp 
spike in attacks over the last 6 weeks, in particular, and we 
have had a conscious blinding of the OSCE, disabling of 
cameras, shootdown by separatists of two OSCE UAVs. So, in both 
our own advocacy at every level, the President, the 
Secretaries, my work with the--President Putin's advisor on 
this work, we are calling this out. So, we are working on it 
very hard. I think the point is for Ukraine to fulfill its 
obligations, and then we test whether Russia was ever serious 
about these agreements.
    Senator Shaheen. Thank you.
    My time is up.
    The Chairman. Thank you. Thank you very much.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Secretary Nuland, let me read you a quote, here, from the 
same individual. It is the general--General Philip Breedlove. 
He said, ``Russia has chosen to be an adversary and poses a 
long-term existential threat to the United States and to our 
European allies and partners.'' Goes on to say, ``Russia does 
not just want to change''--or ``challenge the agreed rules of 
the international order, it wants to rewrite them.'' Is that 
your assessment of the state of Russia today under Vladimir 
Putin, as far as their role in the international scene?
    Ms. Nuland. Senator, I do not have a problem with that 
characterization at all.
    Senator Rubio. So, then let me ask about Ukraine. It--Roman 
Sohn, who is a Ukraine activist. He wrote about Minsk II. He 
said--he called it a farce, and here is his quote, ``While 
Russia does nothing to implement the agreement, the U.S. and 
the EU are forcing Minsk II down the throat of Kiev and that 
Putin knows that it is much easier for the West to put pressure 
on Ukraine to accept bad terms than it is to forge a consensus 
on keeping the pressure, including sanctions, on Russia,'' end 
quote.
    I seem to share those views, given the fact that it appears 
that Russia is perfectly comfortable with what they view as a 
frozen conflict in the region. Obviously, some of what they are 
doing in Syria is distracting attention. We do not talk about 
Ukraine around here nearly as much as we once did. Everyone is 
focused on the role they are playing in Syria. And I think part 
of the calculation Putin had was exactly that. But, it is, in 
fact, a frozen situation.
    And I walked in late, when Senator Menendez was asking 
about this. But, why is he wrong when he characterizes it as a 
farce? Why is he wrong when he characterizes it as a situation 
where no one is pressuring Russia to comply, but they know that 
the West and our European partners are pressuring Kiev, 
especially the Germans, to comply?
    Ms. Nuland. Senator, I think the largest piece of leverage 
that we have on Russia is the sustainment over 2 years of deep 
and comprehensive sanctions across the U.S. and the EU 
countries, Japan, Canada, et cetera. So, again, this is why we 
are advocating, because Minsk has not been implemented, that 
sanctions have to be rolled over again. We are continuing to 
press, as I said to--in response to Senator Shaheen's point, 
that Ukraine cannot be asked to vote on the political 
decentralization pieces of Minsk until the prior actions that 
are demanded in Minsk--real cease-fire, real access throughout 
Donbas for OSCE, cantonment of heavy weapons--has been 
implemented. So, that is the frame that we are using. That is 
the frame that Germany and France are using. I think Ukraine 
does itself a service by being ready with text on an election 
law, being ready with special status to implement when those 
agreed conditions are met. But, Russia has not, either itself 
or with its clients in Donbas, gotten the security conditions 
met.
    Senator Rubio. So, when you talk about rollover, you mean 
the extension of the existing framework. Why not increase 
sanctions? These are now violations of an agreement that they 
reached, and they have not complied with. And I--I mean, am I 
right in guessing--or in stating that your argument is going to 
be that we can--we do not want to go any further than our 
partners in Europe are willing to go, and they are not willing 
to do additional sanctions?
    Ms. Nuland. Well, Senator, I would say, I was quite 
gratified when the G7 nations that met in Japan just a couple 
of weeks ago made clear that we are ready to increase sanctions 
if we need to. The United States, as you know, not only 
maintains the sanctions, but does regular maintenance to them 
to ensure that they cannot be circumvented. We have done that 
on two occasions, and we are prepared to do it again.
    Senator Rubio. It is--could an argument be met that this 
pain threshold is something Putin has--willing to accept? It 
clearly has not impacted his behavior. Or do you argue that the 
sanctions have impacted his behavior?
    Ms. Nuland. Well, all I can tell you is, we have deterred 
further land grabs in Ukraine, and that was a real risk when we 
first started with sanctions, that they would try to run all 
the way to Kiev and to Kharkiv. I will tell you that Russians 
are openly talking now about the pain of sanctions, including 
when we work with them on the Minsk thing. So, they know what 
it is going to take to get these sanctions rolled back, and it 
is their choice whether they want to do what is necessary.
    Senator Rubio. And what about Crimea? How come we no longer 
hear Crimea mentioned? Is it a de facto, now, matter of fact? 
Is it something we have just accepted as reality, or does that 
continue to be a part of our conversations, that Crimea should 
be returned, rightfully?
    Ms. Nuland. Senator, I mentioned Crimea here in my opening. 
Secretary mentions it every time he speaks publicly in Russia. 
We will maintain the Crimea sanctions, which are significant, 
both U.S. and EU, until Crimea is returned rightfully to 
Ukraine.
    Senator Rubio. When they took over Crimea, there was a 
sense, and I thought that it would be a boondoggle for the 
Russian Government, that it would cost them a bunch of money to 
maintain that area. Has it, in fact, turned out--other than the 
geostrategic advantage, do we have any sense as to how many 
resources they are having to put in to uphold and maintain this 
now as part of their national territory?
    Ms. Nuland. It is our estimate that Russia is spending 
billions of rubles trying to maintain its foothold in Crimea. I 
think the most concerning factor, though, is that they are 
further militarizing Crimea.
    Dr. Carpenter might want to speak to that.
    Dr. Carpenter. Well, I would just say that, absolutely, 
that Russia is militarizing Crimea. They have put in very 
sophisticated A2/AD capabilities there since the start of the 
conflict.
    The Chairman. Thank you, very good.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Welcome, to both of you. Thank you for taking so much time 
with us.
    I know that there was some conversation with Senator Perdue 
over the U.S./Georgia bilateral relationship, but I wanted to 
explore that relationship in the context of the upcoming NATO 
Summit. We are hopeful that we will continue on track to offer 
membership to Montenegro. I think they are ready, and it is an 
important signal that NATO still has an open-door policy for 
those that are ready, and that, in general, transatlantic 
institutions are still open for business, despite the 
aggressive tactics of Moscow. But, the Georgians are likely 
going to leave Warsaw disappointed, and the question remains 
whether there is any future for Georgia inside NATO while there 
is still a contest over these territories.
    What we know is that Putin's ambition, I do not think--what 
I believe is that Putin's ambition is not to militarily own 
Ukraine. He wants to continue clouded title over a portion of 
that country so that eventually there becomes such economic and 
political tumult that a government is reinstalled in Kiev that 
is much more friendly to Moscow's interests. And so, it is in 
our interests to make it clear to the Russians that, to the 
extent that they are successful in Ukraine or other places in 
the future of creating clouded title over portions of 
territory, that it does not prevent those countries from being 
eligible to join transatlantic institutions.
    So, I am happy that both of you are involved in this book 
of business, so talk to me about what the future of Georgia's 
potential NATO membership is. I am someone who supports at 
least a Membership Action Plan for Georgia, but--and is 
concerned that, without the settlement of these territorial 
questions, Georgia will forever be disappointed, walking away 
from NATO Summit after NATO Summit.
    Ms. Nuland. Senator, I think we expect, at the Warsaw 
Summit, that the alliance will reiterate the message that we 
have had to Georgia since 2008 regarding our expectations of 
membership. One of the things that we are seeking to do as an 
alliance for Georgia is reorient NATO/Georgia relations, U.S./
Georgia relations away--in security terms--away from simply 
preparing them to deploy with us in Afghanistan or in Kosovo, 
and much more towards a focus on their homeland security needs, 
their national defense resilience, et cetera. So, we are 
working on that.
    The best antidote to Russian pressure is a successful, 
prosperous, democratic Georgia. That is why we work so hard 
with them on justice reform, on rule of law, on strong 
institutions, on market access. We are also encouraging Georgia 
in its relationship with the European Union as it implements 
the trade benefits of that, to reach out to the Abhaas, et 
cetera, and make it possible for them, through Tbilisi, to have 
the benefits of the trade relationship with Europe so that 
someday those parts of Georgia may see stronger benefit from 
Tbilisi than anything that is being offered by any external 
neighbor.
    But, you are absolutely right that it is essential for us 
to continue to be strong supporters of Georgia's aspiration.
    Senator Murphy. Let me actually ask a different question of 
you, Dr. Carpenter, and you can answer this one, as well, if 
you would like. We have been obsessive in this place about 
military assistance for the Ukrainians. There have been many 
members of the Senate who have been disappointed at the level 
of military assistance we have provided. But, it is not a 
coincidence that the Ukrainians have become much more effective 
at rebutting Russian advances. And it is not a coincidence that 
this has happened during a time in which, notwithstanding a 
question over the future of Javelin missiles, we have been 
transferring pretty important technology and important 
expertise and training resources to the Ukrainians. There is a 
success story to tell here about the integration of the 
Department of Defense here and the Ukrainian military, which is 
part of the story, as to why the--well, insufficient, the lines 
have been able to largely hold over a longer period of time. 
Can you just talk to us a little bit about the success of the 
partnerships that we have had with the Ukrainian military?
    Dr. Carpenter. Yes, absolutely. Thank you, Senator.
    So, we have launched, with Ukraine, a substantial training 
and equipping program. There is also an advisory component to 
this that is focused on defense reforms, which was actually a 
fairly substantial effort. But, the training and equipping 
alone is hundreds of millions of dollars. For this year, it is 
$335 million. Last year, we were focused on the National Guard, 
which is within the Ministry of Interior. We trained six 
companies. Now we are training Ukraine's Conventional Armed 
Forces as well as its Special Operations Forces. All told, by 
the time the--this training package is completed, we will have 
trained close to 3,000 Ukrainian troops.
    And the results on the battlefield have been significant. A 
lot of the training process involves taking soldiers who have 
fought in the Donbas, forming new units. We train them 
primarily in Yavoriv, in western Ukraine. And we train them in 
realistic conditions. We run them through basic skills, where 
they learn marksmanship and how to emplace artillery, up 
through more advanced techniques, and then send them as 
coherent units out to the Donbas, where they are able to defend 
their territory.
    And one of the best examples, as you referenced, Senator, 
of Ukraine being able to hold the line came a year ago in June, 
when the separatists launched a massive assault on the town of 
Marinka, and Ukrainians actually had the capability to detect 
surveillance by the Russian-separatist combined teams, and push 
back, resulting in significant casualties on the other side.
    And so, I think our training and equipping program is very 
successful. We would like to be able to continue it, thanks to 
support from Congress for this effort through USAI. And we are 
very proud of the work that our folks are doing from the 173rd 
as well as from the California National Guard to run this 
program.
    With regards to your earlier question about Georgia, part 
of what we are trying to do now in Georgia is to replicate some 
of the success that we have had with Ukraine and to implement a 
training program that is not just focused on expeditionary 
operations that Georgians perform in Afghanistan, which are 
primarily counterinsurgency-focused, to training and equipping 
that is more focused on territorial defense, because that is 
something that clearly Georgia needs, as does Ukraine, after 
years of hollowed-out military and mismanagement.
    Senator Murphy. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Absolutely.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    I am going to ask you three questions, and I will submit 
these questions for the record for the second panel, because I 
cannot stay to hear their answers to them. But, first, in your 
professional opinion, what would the likely effect on Russian 
behavior be if the United States dramatically reduced or 
withdrew its support from NATO?
    Ms. Nuland. As a former Ambassador to NATO, I would say, 
Senator, that that would be a strategic mistake for the United 
States.
    Senator Kaine. Dr. Carpenter?
    Dr. Carpenter. Senator, I could think of no greater gift to 
Russia, and no greater strategic vulnerability for the United 
States and the Euro-Atlantic area, than that course of action.
    Senator Kaine. Second question. On the eve of the Warsaw 
Summit in early July, how concerned are our European NATO 
allies about a potential change in the U.S. level of support 
for NATO?
    Ms. Nuland. You know, obviously, allies are watching the 
debate here in the United States with a lot of interest, as 
they always do. In our conversations, I think they find it very 
difficult to imagine that the United States would break a 70-
year treaty commitment which has served us so well.
    Senator Kaine. Dr. Carpenter?
    Dr. Carpenter. Senator, I will say that, in my 
conversations and travels with my counterparts, I have heard 
significant concern, but I think a lot of our partners believe 
that we will remain committed members of NATO, in fact, and 
play a leadership role in the alliance.
    Senator Kaine. Third. In your professional opinion, is NATO 
obsolete?
    Ms. Nuland. NATO is needed now more than ever.
    Dr. Carpenter. Senator, I could not agree more.
    Senator Kaine. I do not have any other questions.
    Thanks, Mr. Chair.
    The Chairman. I have no idea under--in what context those 
questions were asked, but--[Laughter.]
    The Chairman. Just to follow up--and I do very much 
appreciate you asking those questions--I know that we have had 
Madeleine Albright here. We certainly have had people of 
various persuasions before this committee. Obviously, the NATO 
alliance is very important to us, and very important to Europe, 
as we hope TTIP will be over time. As a result, we hope 
economically tie our two sides of the ocean more closely 
together.
    On the other hand, what is it that we can do to actually 
leverage our NATO allies? We are, let's face it, a global 
entity. Seventy percent of NATO defense resources are spent by 
the United States, 30 percent by other members. I realize that 
we have other responsibilities around the world outside of 
NATO, but what leverage points do we have over those who are, 
for lack of a better word, being laggards? What can can we do 
to pressure those who are not fulfilling their 2-percent level 
of commitment? All of us, on both sides of the aisle, talk with 
our counterparts at Munich and other places, but we continue to 
be the primary provider of security services. We appreciate so 
much what they have done to help us, especially in Afghanistan, 
which was a very unusual circumstance. We appreciate their 
commitment, but we still only have four countries that are 
honoring the monetary portion of the treaty.
    Ms. Nuland. Senator, I would say that culmination of the 
Kremlin and ISIL have motivated allies in a way that we have 
not seen for many years. As we head towards--as you remember, 
at the Wales Summit, we got commitments from allies to reverse 
defense spending slide. Seventy percent of allies are meeting 
those commitments, and I think we will be able to say, at 
Warsaw, that most allies are now increasing their defense 
budgets, and that, within a few years, we will have--we will be 
in double digits on the number of allies who are at 2 percent. 
But, we all have to continue to advocate and push, and we have 
to create structures in NATO, as we are trying to do as we head 
towards Warsaw, where the burden-sharing is built in as the 
U.S. is more evident in some countries, others are more evident 
in other countries, as we did with Afghanistan.
    So, we are going to continue to work on that, but we very 
much value the advocacy that you all do when you are in Europe 
in--on a bipartisan basis. It is very important for Europe to 
know that burden-sharing is expected by all Americans.
    The Chairman. Thank you.
    Dr. Carpenter, do you wish to add to that?
    Dr. Carpenter. I would just say, Chairman, that right now 
we have got five allies, including the United States, that are 
at 2 percent. I would add a couple of things. One, there is an 
additional pledge of 20 percent of defense spending spent on 
capital investments and equipment, which is very important to 
sustain the capabilities of the alliance, going forward. So, it 
is important to accentuate that, as well. I think we need to 
talk to allies about this each and every day.
    But, the other point I wanted to make is, having just come 
from a trip to the Western Balkans, where I met with some of 
our allies there, they also do provide troops to some of the 
NATO missions that we run in Afghanistan and other places. And 
so, it is important to remember that, in addition to their 
defense spending, that a lot of our allies are also 
contributing troops to the fight.
    The Chairman. Thank you.
    You all have been outstanding witnesses. People have gained 
a lot from your knowledge and your willingness to be here.
    The record will close on Thursday at the end of the day. If 
you would please respond to questions in a timely manner.
    Thank you for your service to our country and for being 
here to help us.
    And, with that, we will move to the second panel.
    Thank you both very much. [Pause.]
    The Chairman. We thank our second panel for being here. I 
think you'll see that sometimes after our first panel, there is 
an exodus. Yet, we often find that our second panel, in many 
cases, is more interesting and more enlightening. I am not 
saying that is necessarily the case today, but we thank you 
both for being here.
    Today, we have Mr. David Satter, a Senior Fellow from the 
Hudson Institute. Thank you for coming to share your wisdom 
with us. Additionally, we have Mr. Vladimir Kara-Murza, and we 
thank you so much for being here as well. I know you were at an 
earlier hearing we had this year, and all of us wanted to have 
you back. We thank you for making the effort to be here.
    So, with that, Mr. Satter, if you would begin, with about 5 
minutes, we would appreciate it. We will move to Mr. Kara-
Murza.

           STATEMENT OF DAVID SATTER, SENIOR FELLOW, 
               HUDSON INSTITUTE, WASHINGTON, D.C.

    Mr. Satter. Thank you, Senator. I am very glad to be here 
and very anxious to talk about U.S./Russian relations, not only 
from the point of view of policies, treaties, and bilateral 
arrangements, but also a very important question which informs 
all of the latter, which is the spirit of Russia.
    Oftentimes, we make policy on the assumption that the 
spirit of Russia is actually very little different from the 
spirit of the United States. This is one of the reasons why we 
often are surprised by Russian behavior. If we take it for 
granted that the leaders of a country are dedicated to the 
national interest and the welfare of the population of the 
country, we find it hard to understand a country in which the 
leadership is totally indifferent to the welfare of the 
population. If we take it for granted that the human individual 
is an end in himself, we find it hard to deal with a country in 
which individuals are raw material for the realization of the 
political goals of the political leaders. And many of those 
goals are very bizarre indeed.
    For this reason, there is always a danger that we will 
mistake Russian actions. One of the most important things to 
bear in mind about Russia is that war is an instrument of 
internal policy. The first Chechen war was launched in order 
for there to be a short victorious war that would boost the 
rating of, at that point, President Yeltsin, who was suffering 
because of the aftereffects of privatization and the 
impoverishment of the population. The war proved out--proved to 
be neither short nor victorious.
    The second Chechen war was undertaken in order to guarantee 
the succession to Yeltsin. And this is one of the most 
important episodes of Russian history, also one about which 
Americans are very much in the dark. A terrorist act took 
place. It was used to justify a new war in Chechnya. Yeltsin, 
who was--Putin, rather, who was very little known, became the 
Prime Minister, took charge of that war, and, on the strength 
of the successful prosecution of that war, was elected 
President.
    Later, the bombs that were placed began to appear very 
suspicious. A fifth bomb was found in the city of Ryazan, 
outside of Moscow, and the persons who put it in the basement 
of that building turned out to be not Chechen terrorists, but 
actually agents of the FSB. The--war broke out again, as a 
result of the events in Ukraine, where a self-organizing 
anticriminal revolution demonstrated to the Russian people 
potentially how it might be possible to resist the kleptocratic 
authorities who were in charge in their own country. A massive, 
in effect, diversionary effort was made to distract Russians 
from the true lessons of Euromaidan. And when the resistance of 
the Ukrainians proved greater than the Russians expected, a new 
diversionary operation was launched in Syria to distract the 
Russian population from what was going on in Ukraine.
    Under these circumstances, one of the most important things 
that the United States can do is it reinforce the deterrence to 
using war in this manner, and also to make renewed efforts to 
reach the Russian people about the true activities and 
motivations of their authorities so that they are not just 
unwitting instruments in the hands of their leaders, but are in 
a position, finally, to make their leaders answer to them. This 
is the intellectual challenge that faces American policy, and 
over and above, and complementary to, the challenge of 
strengthening the purely practical aspects of deterrence on 
which, in fact, European stability and world stability depend.
    [Mr. Satter's prepared statement follows:]


                   Prepared Statement of David Satter

    The leaders of post-Soviet Russia, a supposedly democratic country, 
have used wars to achieve internal political objectives. The first 
Chechen war was ``a small victorious war'' that was calculated to raise 
the popularity of President Yeltsin which suffered because of the 
lawless process of privatization and resulting impoverishment of the 
Russian people. The second Chechen war was intended to save those who 
had pillaged the country and assure Putin's elevation to power. In 
perhaps the greatest political provocation since the burning of the 
Reichstag, four apartment buildings in Buinaksk, Moscow, and Volgodonsk 
were blown up in 1999 and the attack was blamed on Chechen terrorists. 
In fact, there is overwhelming evidence that the bombings were carried 
out not by Chechens but by the Russian Federal Security Service (FSB). 
This evidence includes but is not limited to the fact that FSB agents 
were arrested after placing a bomb in a fifth building in the city of 
Ryazan southeast of Moscow and Gennady Seleznev, the speaker of the 
State Duma, announced the bombing in Volgodonsk September 16, 1999 
three days before it occurred.
    The bombings were used as a pretext for a new war in Chechnya and 
success in fighting this war brought Putin to power. In other words, 
there is overwhelming evidence that Putin rules as a result of an act 
of terror against his own people.
    The war in Ukraine was also undertaken to distract the Russian 
people. In this case, it was intended to blind them to the real lesson 
of Maidan revolt--the possibility of a people to spontaneously and 
freely organize against a kleptocratic regime. The war in Syria, in 
turn, was undertaken in order to distract attention from the lack of 
success in Ukraine. The ambitious plans to carve out a ``New Russia'' 
from sovereign Ukrainian territory were at least temporarily frozen in 
the face of Western sanctions and stiff Ukrainian military resistance.
    Calls by presidential candidates for a ``grand bargain'' with 
Russia which, in fact, only repeat the premise of the ``reset policy'' 
are therefore naive and misguided. The only bargain that the U.S. can 
obtain are on terms that no President concerned to honor American 
principles could accept--the right of Russia to suppress its people and 
attack its neighbors. If such terms were accepted, the Russian leaders 
would immediately escalate their demands.
    The following are some of the areas in which Russian actions 
represent a danger to the U.S., its neighbors or civilized principles:
                                ukraine
    Russia is guilty of aggression against Ukraine, having deliberately 
started a war on an invented pretext in order to destabilize the 
Ukrainian Government and discredit the Ukrainian anti-criminal Maidan 
revolution. The war in Ukraine is sometimes referred to as a ``hybrid 
war.'' But this term is incorrect. What is taking place is a real war 
with full Russian participation but under conditions in which Russia's 
role is hidden. A better term for what is going on is ``concealed 
war.'' Russia is seeking to achieve success with the help of pro-
Russian separatists in Ukraine who, along with Russian volunteers and 
regular Russian forces are fighting the Ukrainian Army. But the 
operation is a full scale invasion and was organized by Russia from the 
start.
    In light of the possible destabilizing consequences of Russia's 
aggression for international security, the situation requires a greater 
commitment on the part of the U.S. to the defense of Ukraine. The 
Minsk-2 agreement in which a Russian cease fire was purchased with the 
help of a commitment to allow Russia to change the nature of Ukrainian 
statehood cannot be the base of a resolution of the conflict. According 
to the latest UN figures, more than 9,000 persons have been killed in a 
war that has no purpose except to reinforce the Putin regime's hold on 
power. Arming Ukraine with defensive lethal weapons to be used on their 
sovereign territory and the toughening of the sanctions regime can help 
to raise the cost of aggression and restore the international order.
                              the baltics
    Russia is no match for NATO or the U.S. in an all-out war but it 
could provoke a localized conflict in the Baltics where it has 
strategic superiority and then threaten to use nuclear weapons, 
presenting NATO with a choice of escalation or backing down. This is 
perhaps the greatest strategic threat to the U.S. at the present time 
because a failure to defend one of the Baltic NATO members would 
destroy the effectiveness of NATO as a whole.
    The Russians are clearly ready to take risks. On April 14, a 
Russian SU-27 fighter jet flew dangerously close to a U.S. RC-135 
reconnaissance aircraft over the Baltic Sea. It came to within 50 feet 
of the plane and conducted a barrel roll starting from the left side of 
the aircraft, going over the aircraft and ending up to the right of the 
aircraft. This incident came two days after a simulated Russian aerial 
assault against the guided missile destroyer U.S.S. Donald Cook in the 
Baltic Sea. One of the jets came to within 30 feet of the warship. This 
was the most reckless flyover of a U.S. ship by a Russian jet since the 
Cold War. Neither of these incidents could have occurred by accident.
    The air incidents are a message that the Russians want the U.S. out 
of the Baltic region. They have been accompanied by Russian prevention 
of U.S. and allied flights over the heavily militarized Kaliningrad 
region that are allowed under the Open Skies Treaty, the latest of a 
number of violations of that treaty.
    Russian intimidation, however, does not need to succeed. The 
Russian leaders are not ideological. The effort that they have invested 
in amassing personal fortunes attests to this. They will not risk their 
hold on power on behalf of a conflict they know they will lose. The 
proper response to Russian tactics is therefore a commensurate 
strengthening of NATO's Baltic defenses.
                        indiscriminate violence
    The Russian authorities act with a complete disregard for human 
life. This is of concern to the U.S. not only on humanitarian grounds 
but also because Russian violence can claim the lives of Americans and 
can have consequences for Americans.
    In Syria, the Russian bombing is indiscriminate. According to the 
Violations Documentation Center, which seeks to document the attacks by 
all sides, the civilian death toll from Russian strikes by mid-March 
was over 2,000. In January alone, according to the Syria Network for 
Human Rights, another monitoring organization, Russian air strikes 
killed 679 civilians, including 94 children and 73 women. This exceeded 
the number of civilians killed by the Syrian Army, which is also guilty 
of indiscriminate bombing. For purposes of comparison, the total number 
of civilians killed by ISIS in January was 98, the number killed by the 
al-Qaeda affiliated al-Nusra front was 42.
    Russian forces have intentionally bombed civilian areas to spread 
fear and clear areas where government ground troops were preparing to 
advance. This is consistent with Soviet military doctrine, employed by 
both sides in the Ukrainian war and an important factor in the death 
toll in that conflict. The bombing of civilian targets in Syria, 
including bakeries and hospitals, also increases the flow of refugees 
towards Turkey and Europe, exacerbating internal tensions in those 
regions and creating pressure to accept a resolution of the Syrian 
crisis on Russian terms.
    Americans were among the victims when on July 17, 2014 Malaysia 
Airlines flight MH17 was shot down over Eastern Ukraine killing all 298 
persons on board. The Dutch Safety Board confirmed that MH17 was 
destroyed by a missile fired from a Russian made BUK anti-aircraft 
battery. The Putin regime, in complete disregard for the safety of 
innocent international air travelers, had transferred missiles capable 
of shooting down planes flying at over 30,000 feet to a quickly 
assembled army fighting in an area traversed by one of the busiest 
commercial air corridors in the world.
    There was an American victim, Sandy Booker of Oklahoma, in the 2002 
Moscow theater siege in which the Russian authorities flooded a theater 
with lethal gas. In all cases, the Russian leaders need to be put on 
notice that the indiscriminate killing of hostages in ``anti-
terrorist'' operations will not be tolerated and the deaths of any 
Americans will lead to serious sanctions.
    The Putin regime is not a normal government but a regime that is at 
war furtively with its own people. The Putin regime claims an approval 
rating of 85 to 87 per cent but they have found it necessary to create 
a 400,000 member national guard for suppressing domestic disturbances 
and have passed a new law making it legal for FSB agents to fire 
without warning into a crowd.
    In fact, the Russian leaders fear their own people and have no 
compunction against using violence against them. As a result of the 
sanctions and the fall in the price of oil, Russia last year lost 1.5 
per cent of its gross national product. The existing sanctions have 
made it difficult for Russian banks and enterprises, both state and 
private to refinance their debts and have cut off Western technology to 
the gas and oil industry. If this state of affairs continues, the 
consequences for the economic development of the country will be 
catastrophic.
    In light of the dangers that the present Russian regime represents, 
it is important for the U.S. to understand the importance of 
psychological deterrence. Restraining the behavior of the Putin regime 
requires creating the impression in both word and deed that violations 
will meet with a serious response. One little explored way of doing 
this is with truthful information. The Russian authorities have 
benefited from the 17 year refusal of U.S. officials to raise the many 
unanswered questions about the 1999 Russian apartment bombings that 
brought Putin to power and also the delicacy with which the U.S. has 
discussed the obvious signs of official involvement in the murders of 
such opposition figures as journalist Anna Politkovskaya, Duma deputies 
Yuri Shchekochikhin and Sergei Yushenkov and opposition leader Boris 
Nemtsov, among others. The U.S. should weigh the example of the court 
in the United Kingdom which found that Putin ``probably'' approved the 
murder of Alexander Litvinenko, the former FSB officer poisoned with 
radioactive polonium in London in 2006 and seek to emulate it.
    The ``reset'' policy toward Russia, now largely discredited, could 
have been avoided if U.S. officials had considered the significance of 
the murders of Politkovskaya and Litvinenko only two years earlier.
    The willingness to insist on the truth about the Russian regime's 
crimes will not in and of itself deter Russian aggressivity including 
the regime's repression of its own people. But insofar as deterrence is 
also a matter of psychology, it will reinforce steps at the policy 
level to convince the Russian leaders that it is simply not in their 
interest to act in defiance of civilized rules.
    The Russian leaders need to be convinced that the U.S. is fully 
aware of their true character. This will encourage restraint and 
discourage miscalculation. It will also act in Russia's long term 
interest, encouraging changes that will make it possible for Russia one 
day to take its deserved place in the world of Western nations.


    The Chairman. Thank you very much for that.
    Mr. Kara-Murza.

 STATEMENT OF VLADIMIR KARA-MURZA, NATIONAL COORDINATOR, OPEN 
              RUSSIA MOVEMENT, RUSSIAN FEDERATION

    Mr. Kara-Murza. Thank you very much, Chairman Corker, 
Ranking Member Cardin, Senator Risch, Senator Shaheen. Thank 
you for holding this important and timely hearing.
    The Chairman. Senator Markey stepped in, as well. I know he 
is hard to see.
    Mr. Kara-Murza. Oh. Senator Markey, thank you so much for 
being here. And thank you for the opportunity to testify and to 
appear before you today.
    Twenty-five years ago, at a conference held, of all places, 
in Moscow, member states of the Organization for Security and 
Cooperation in Europe established as a principle that issues 
relating to democracy, human rights, and the rule of law, and I 
quote, ``are matters of direct and legitimate concern to all 
participating states and do not belong exclusively to the 
internal affairs of the state concerned,'' end of quote.
    Through its membership of both the OSCE and the Council of 
Europe, the Russian Federation has undertaken clear and binding 
commitments with respect to election standards, the freedom of 
expression, the freedom of assembly, and other important 
aspects of human rights. And all these principles are also 
enshrined in the Russian Constitution.
    In its 16 years, nearly a full generation in power, 
Vladimir Putin's regime has turned these commitments and these 
principles into a dead letter. Today, elections in our country 
serve as a mere ritual for ordaining the incumbents, with any 
meaningful opposition, in most cases, simply disqualified from 
the ballot, and with voting marred by intimidation and fraud.
    After March 2000, so more than 16 years, not a single 
national election in Russia has been assessed as free and fair 
by OSCE and Council of Europe observers. And, according to 
independent estimates, up to 14 million votes were stolen in 
favor of the ruling party in the most recent parliamentary 
election, in 2011, which was followed by the largest street 
demonstrations under Vladimir Putin's rule, as more than 
100,000 people went to the streets of Moscow to protest against 
fraud.
    And preparations for this September's parliamentary vote 
are certainly not promising, with new restrictions imposed on 
both campaigning and observation, and with the establishment of 
a new National Guard that will be allowed to use force and 
shoot without warning in the event of mass demonstrations after 
the election.
    For more than a decade now, the Russian parliament has been 
devoid of genuine opposition, not a place for discussion in the 
unforgettable words of its own Speaker. The same applies to 
most media outlets.
    After taking over or shutting down independent television 
networks in the early years of Mr. Putin's rule, the Kremlin 
now controls all the national airwaves, which it uses to rail 
against the outside world, primarily the West, including the 
United States and Ukraine, as well as Mr. Putin's political 
opponents at home who are denounced as traitors, foreign 
agents, and enemies of Russia.
    The few surviving pockets of media independents are under 
severe pressure as we saw again recently with the editorial 
purges of the RBC Media Group following its coverage of the 
Panama Papers.
    The police, the prosecuting authorities, and the courts are 
used by the Kremlin as tools for suppressing and punishing 
dissent. According to Memorial, Russia's most respected human 
rights organization, there are currently 87 political prisoners 
in our country, a number which is already comparable with the 
late Soviet era. These prisoners include leftist politicians, 
Sergei Udaltsov; the brother of anticorruption campaigner 
Alexei Navalny, Leg Navalny; opposition activist Ildar Dadin, 
who was jailed under a new law that targets individual street 
protests; and Alexei Pichugin, the remaining hostage of the 
Yukos case. And they also include prisoners of the infamous 
Bologna case who were jailed merely for the fact that they came 
out on the streets to protest against Mr. Putin's inauguration 
in May of 2012.
    But, those who oppose Vladimir Putin's regime risk not only 
their well-being and their freedom, they also risk their lives. 
On the 27th of February of last year, Boris Nemtsov, former 
Deputy Prime Minister and the leader of Russia's pro-democracy 
opposition, was killed by five bullets in the back as he walked 
home over the Bolshoi Moskvoretsky Bridge, just 200 yards from 
the Kremlin wall. A year on, the investigation into his murder 
is stalling. Although they have apprehended the alleged 
perpetrators, investigators have been unable to pursue the 
organizers and the masterminds. In fact, according to media 
reports, attempts to track the higher-ups were personally 
vetoed by General Alexander Bastrykin, the head of Russia's 
investigative committee. And, despite the obvious links between 
the murder suspects and Kremlin-appointed Chechen leader Ramzan 
Kadyrov, he has not been even formally questioned in the case.
    I can also speak to the dangers that face opposition 
activists in Russia from personal experience. Exactly 1 year 
ago in Moscow, I fell into a coma as a result of severe 
poisoning that led to multiple organ failure that was certainly 
intended to kill. In fact, doctors told my wife, who is here 
today, that they estimated the chance of survival at around 5 
percent. So, I am very fortunate and certainly very happy to be 
here today and to be speaking and to be testifying before you.
    Our friends in the West often ask how they can be helpful 
to the cause of human rights and democracy in Russia. And the 
answer to this is very simple. Please stay true to your values. 
We are not asking for your support. It is our task to fight for 
democracy and the rule of law in our country. The only thing we 
ask from Western leaders is that they stop supporting Mr. Putin 
by treating him as a respectable and worthy partner and by 
allowing Mr. Putin's cronies to use Western countries as havens 
for their looted wealth.
    The United States has been a pioneer in putting a stop to 
this. Nearly 4 years ago, this Congress passed the Sergei 
Magnitsky Act, a groundbreaking law that, for the first time 
ever, introduced personal accountability for human rights abuse 
and corruption by prohibiting those who violate the rights of 
Russian citizens and who pillage the resources of Russian 
citizens from traveling to the U.S. and using the U.S. 
financial system.
    And I would like to use this opportunity to thank you, 
Senator Cardin, for your leadership and your unyielding 
commitment on this issue.
    Testifying before this committee--in fact, in this very 
room; I was here with him on that day--in June 2013, Boris 
Nemtsov called the Magnitsky Act, and I quote, ``the most pro-
Russian law in the history of any foreign parliament,'' end of 
quote. It is my sincere hope that this law is implemented to 
its full extent without regard for rank or influence, and that 
these crooks and these abusers get a clear message that they 
will not be welcome here. And that will be the best possible 
way to support the cause of human rights in Russia.
    Thank you very much once again for the opportunity to 
testify.
    [Mr. Kara-Murza's prepared statement follows:]


              Prepared Statement of Vladimir V. Kara-Murza

    Chairman Corker, Ranking Member Cardin, esteemed members of the 
committee, thank you for holding this important and timely hearing, and 
for the opportunity to testify before you.
    Twenty-five years ago, at a conference held, of all places, in 
Moscow, member states of the Organization for Security and Cooperation 
in Europe established as a principle that issues relating to human 
rights, democracy, and the rule of law ``are matters of direct and 
legitimate concern to all participating States and do not belong 
exclusively to the internal affairs of the State concerned.'' \1\ 
Through its membership of both the OSCE and the Council of Europe, the 
Russian Federation has undertaken binding commitments with respect to 
election standards, the freedom of expression, and other important 
aspects of human rights. All of these principles are enshrined in the 
Russian Constitution.
---------------------------------------------------------------------------
    \1\ 1991 CSCE/OSCE Moscow Document.
---------------------------------------------------------------------------
    In its sixteen years--nearly a generation--in power, Vladimir 
Putin's regime has turned these commitments into a dead letter.
    Today, elections in our country serve as a mere ritual to ordain 
the incumbents, with any meaningful opposition, in most cases, 
disqualified from the ballot, and with voting marred by intimidation 
and fraud. After March 2000, not a single nationwide election in Russia 
has been assessed by OSCE and Council of Europe observers as free and 
fair. According to independent estimates, up to fourteen million votes 
were stolen in favor of the ruling party in the most recent 
parliamentary election in 2011, which was followed by the largest 
street demonstrations under Mr. Putin's rule, when more than 100,000 
people went to the streets of Moscow to protest fraud.\2\ Preparations 
for this September's parliamentary vote are not promising, with new 
restrictions imposed on both campaigning and observation, and with the 
establishment of a new National Guard that will be allowed to use force 
and shoot without warning in the event of mass demonstrations.
---------------------------------------------------------------------------
    \2\ ``Russia's Dubious Vote,'' The Wall Street Journal, December 
28, 2011.
---------------------------------------------------------------------------
    For more than a decade, the Russian parliament has been devoid of 
genuine opposition--``not a place for discussion,'' in the 
unforgettable words of its own speaker. The same applies to most media 
outlets. After taking over or shutting down independent television 
networks in the early years of Mr. Putin's rule, the Kremlin now 
controls all nationwide airwaves, which it uses to rail against the 
outside world--including the West and Ukraine--and against Mr. Putin's 
political opponents at home, who are denounced as ``traitors'' and 
``enemies of Russia.'' The few surviving pockets of media independence 
are under severe pressure, as witnessed by the recent editorial purges 
at the RBC media group following its coverage of the ``Panama Papers.''
    The police, the prosecuting authorities, and the courts are used by 
the Kremlin as tools for suppressing and punishing dissent. According 
to Memorial, Russia's most respected human rights organization, there 
are currently eighty-seven political prisoners in our country--a number 
comparable with the late Soviet era.\3\ These prisoners include leftist 
politician Sergei Udaltsov; the brother of anticorruption campaigner 
Alexei Navalny, Oleg Navalny; opposition activist Ildar Dadin, jailed 
under a new law that targets individual street protests; and Alexei 
Pichugin, the remaining hostage of the ``Yukos case.''
---------------------------------------------------------------------------
    \3\  List of people recognized as political prisoners by the 
Memorial Human Rights Center (in Russian) http://memohrc.org/pzk-list
---------------------------------------------------------------------------
    But those who oppose Mr. Putin's regime risk not only their 
wellbeing and their freedom. They also risk their lives.
    On February 27, 2015, Boris Nemtsov, former deputy prime minister 
and leader of Russia's pro-democracy opposition, was killed by five 
bullets in the back as he walked home over the Bolshoi Moskvoretsky 
Bridge, two-hundred yards from the Kremlin wall. More than a year on, 
the investigation into his murder is stalling. Although they have 
apprehended the alleged perpetrators, investigators have been unable to 
pursue organizers and masterminds. According to media reports, attempts 
to track the higher-ups were vetoed by Gen. Alexander Bastrykin, the 
head of Russia's Investigative Committee.\4\ And, despite the obvious 
links between the murder suspects and Kremlin-appointed Chechen leader 
Ramzan Kadyrov, he has not been even formally questioned in the case.
---------------------------------------------------------------------------
    \4\ ``RBC Investigation: Where the Nemtsov Case Has Led'' (in 
Russian), RBC, January 20, 2016.
---------------------------------------------------------------------------
    I can speak to the dangers that face opposition activists in Russia 
from personal experience. Exactly one year ago, in Moscow, I fell into 
a coma as a result of severe poisoning that caused multiple organ 
failure and that was certainly intended to kill. Doctors told my wife 
that they estimated the chance of survival at around five percent. I am 
very fortunate indeed to be speaking with you today.
    Our friends in the West often ask how they can help the cause of 
human rights in Russia. The answer is simple: please stay true to your 
values. We are not asking for support--it is our task to fight for 
democracy and the rule of law in our country. The only thing we ask 
from Western leaders is that they stop supporting Mr. Putin by treating 
him as a respectable partner and by allowing his cronies to use Western 
countries as havens for their looted wealth. The U.S. has been a 
pioneer in the efforts to put a stop to this. Nearly four years ago, 
Congress passed the Magnitsky Act, a groundbreaking law that, for the 
first time, introduced personal accountability for human rights abuse 
and corruption by prohibiting those who violate the rights and pillage 
the resources of Russian citizens from traveling to the U.S. and using 
its financial system. Testifying before this committee in June 2013, 
Boris Nemtsov called the Magnitsky Act ``the most pro-Russian law in 
the history of any foreign parliament.'' \5\ It is my hope that this 
law is implemented to its full extent, without regard for rank or 
influence, and that the crooks and abusers get a clear message that 
they will not be welcome here.
---------------------------------------------------------------------------
    \5\ Testimony by Hon. Boris Nemtsov, U.S. Senate Committee on 
Foreign Relations, hearing held June 13, 2013.


    The Chairman. Well, thank you both for your testimony. I 
certainly appreciate the deep commitment you have and the 
personal experiences you've shared.
    We have a vote. I am going to turn over to Senator Cardin 
for questions. I think what I will do is go vote so that we can 
flip it and you can so the same.
    I want to thank you, though. I appreciate your mention of 
the Magnitsky Act. And I want to thank Senator Cardin for his 
tremendous leadership, for years, on human rights issues, but 
particularly in causing this to become law.
    Thank you very much.
    Senator Cardin [presiding]. Let me, first, thank the 
Chairman for his incredible support in regards to this 
committee focusing on human rights issues. And let me thank 
you, Mr. Kara-Murza, for being here. I know that it was a long 
trip from Russia to come and visit. And we thank that your wife 
is here, and we are thankful that you are healthy. We know the 
personal risks that you have taken.
    Let me just update you, first, on the Sergei Magnitsky 
global efforts that we are making so that the legislation that 
we passed aimed towards Russian can be used to help all 
countries protect the rights of their citizens. And you are 
absolutely right, the Moscow document in 1990 made it very 
clear that the commitments to basic human rights are not an 
internal matter for a country, but are legitimate interests of 
all the members of the OSCE. So, the Sergei Magnitsky enforces 
that by saying that, if Russia does not take action against the 
abusers, we are not going to give them the benefits of our 
country. And it is--as I indicated in my opening statement, we 
have applied that numerous times in the United States against 
Russians who have violated human--basic human rights and have 
not been held accountable by their government. And we believe 
it can be further used.
    Today, on the floor of the United States Senate, by a 
unanimous consent, all 100 Senators once again, second time, 
confirmed that the Magnitsky law should be global. So, we 
anticipate, by the end of this Congress, that we will, in fact, 
have a global Magnitsky law so that we can take the--our 
experience from Russia and use it in other countries. As you 
know, Russia's influence is also in other countries, so we--be 
helpful.
    I want to drill down a little bit on your comments about 
personal safety. It is so important to put faces on issues. We 
saw that with Sergei Magnitsky. It allowed us to pass a bill. 
Otherwise, when you talk about 50 people being in prison, it 
sort of rolls off the international news stories pretty 
quickly, but, when you put a face to it and recognize what an 
individual has gone through--and your personal presence here 
today makes a huge difference, and I thank you for doing that.
    The elections are September. What type of opportunities do 
you believe opposition forces will have in Russia, both 
directly participating in the elections and then expressing 
their views in regards to the parliamentary elections? Will 
there be an opportunity for opposition participation?
    And you indicated that the protests after the 2011 was 
pretty embarrassing to Russia. What do you anticipate will be 
done if the Russian public believes these elections are not 
fair and want to express themselves? How will the government 
respond?
    Mr. Kara-Murza. Thank you very much, Senator Cardin, for 
the question. And thank you also for your efforts on the global 
Magnitsky Act. I completely associate myself with what you 
said. And we know that human rights are universal, and the 
protection of human rights is universal. And so, I think the 
responsibility for violating human rights should be universal, 
too.
    On your question about the elections, as I mentioned in the 
opening statement, we have not had a free and fair national 
election in Russia in more than 16 years, if we take the gold 
standard of OSCE election observation and Council of Europe 
election observation. And, of course, we have no reason to 
believe that the upcoming parliamentary election on September 
the 18th will be free and fair. In fact, we are seeing the 
preparations already: new restrictions imposed on election 
observers, new restrictions imposed on journalists who cover 
the elections, new restrictions imposed on the campaign itself, 
this new National Guard that is clearly being prepared by the 
Kremlin in the event of a repeat of the mass protests we saw on 
Bologna and other places in December 2011 and early 2012.
    And there is always this ongoing debate within the 
opposition whether we should even participate in the rigged and 
unfair elections. And I believe that, yes, we should. And my 
colleagues believe that, yes, we should, because we can use 
even this flawed and manipulated and rigged electoral process 
in order to help get our message across, get through that wall 
of propaganda and lies that has been built up by the regime, 
and also, I think, very importantly, to help this young 
generation of pro-democracy and civil-society activists in our 
country to go through that process and gain the political 
experience that they will need in the future. Because the day 
will come when Russia will have a free and fair election, and 
we have to start preparing for that, I think, now.
    And so, the Open Russia Movement, which I have the honor of 
representing, will be supporting candidates in individual 
single-member districts for the state duma, across the country. 
It is a wide geography from St. Petersburg to Irkutsk. And I am 
now going around the country in different regions and taking 
part on the campaign events in meetings with voters. I was just 
in St. Petersburg a few days ago, and Irkutsk a couple of weeks 
ago. And, you know, I am seeing how effective and how 
necessary, how important that is.
    And I think it is also important to mention that we have 
this opportunity to participate in this election this year, 
thanks to Boris Nemtsov, because 2 and a half years ago, in 
2013, he won the legislative seat in the region of Yaroslava. 
And, according to Russian law, a party that is represented in 
at least one of the regional legislatures in Russia does not 
need to collect signatures in order to have access to the 
ballot. And the Putin regime usually uses the signatures as a 
filter to get unwanted candidates off the ballot, to disqualify 
them. So, because we have that opportunity, the People's 
Freedom Party, which was founded and led by Boris Nemtsov, has 
this opportunity.
    We will be on the ballot--our candidates will be on the 
ballot this September. And I think it is also--it will be very 
important for our partners in the OSCE, including the United 
States, to pay attention to what will be going on, to pay 
attention to a potential fraud, to send a robust monitoring 
mission, as much as possible. And I know there will be an OSCE 
parliamentary assembly session coming up in July, I believe, in 
Tbilisi. It will be very important, I think, to raise that 
issue, that there should be robust observation of the Russian 
parliamentary election this September. And if there are cases 
of fraud, they should be publicized, they should be talked 
about, they should be paid attention to, because I think the 
only thing this regime is afraid of is public reaction in 
Russia. We saw how afraid they were during the mass protests in 
the winter of 2011-2012. And I think we should--the whole world 
should be watching closely as this September election 
approaches, especially, as we have both mentioned today, 
election status and human rights are not an internal affair.
    Senator Cardin. Yeah.
    Congressman Smith and Senator Wicker will be leading a 
delegation to Tbilisi in July. I will make sure that the 
Russian election is part of our priorities for those 
discussions. And yes, we will participate within the OSCE on 
the monitoring, and we will make sure that we report accurately 
what happens in Russia.
    We are concerned, though, that--knowing what happened in 
the previous election, that there could be some personal safety 
issues associated with participation in this election. Do you 
have that concern?
    Mr. Kara-Murza. Well, as you know, I have had some reason 
to worry about personal safety. And I know many of my 
colleagues also obviously face this risk on a daily basis. But, 
I think, you know, those of us who are, you know, activists, 
leaders, public faces of the democratic opposition in Russia, 
you know, we have known for a long time that it is a dangerous 
location to be in opposition to Mr. Putin's regime. But, you 
know, we have accepted that. We think, you know, frankly, that 
our country has no future under this regime, that it is--this 
regime is driving our country into a dead-end, and, if we want 
to fight for our country's future, we have to accept those 
risks. And I think there is nothing better this regime would 
like us to do than to give up and run away. And I do not 
think----
    Senator Cardin. Yeah.
    Mr. Kara-Murza [continuing]. We should be giving them that 
pleasure.
    Senator Cardin. Mr. Satter, you raise a very almost 
frightening point, that Russia uses war for its domestic agenda 
more than it--and not necessarily the importance of the battle 
itself, but the political significance or the--how it distracts 
from other issues. Do you anticipate that we might see more 
military action by Russia to further its overall objectives, 
not so much the specific area where the military operations 
take place, but to further their domestic support for their 
broader goals?
    Mr. Satter. That is the key determinant. And that is the 
most important thing for the United States to keep in mind in 
anticipating possible Russian aggression, that what will 
motivate it--the Russian authorities is not the desire to 
rebuild the Soviet empire. They are actually, I think, 
indifferent to that. What--they go to war to strengthen the 
hold on power of a small kleptocratic group which monopolizes 
the instruments of power and property in the country. If they 
feel threatened, and they understand that the best way to 
consolidate their hold on power is to find a pretext for 
military aggression, they will look for it. And that is why 
the--deterrence is so important. But, not only deterrence in 
military terms, but psychological deterrence, something which 
is very much neglected by the United States, because we are--
we, with great difficulty, understand the cultural context in 
Russia, in the psychological context, what is really going on 
there. And all of the goodwill that we show--I was struck, in 
fact, by a statement of Secretary Kerry recently in which he 
said, about Minister Lavrov, that, ``He lied to me to my 
face.'' And I was taken aback by that remark, because I was 
surprised that Kerry expected anything different. This is the 
indispensable background to policy decisions, an awareness of 
the people with whom you are having--with whom you are dealing. 
And this, I think, is what is missing. This is what has to be 
reinforced. This can also be an important element in 
deterrence.
    Senator Cardin. Thank you for that answer.
    We are going to stay in brief recess til the Chairman 
returns so that I can vote on the amendment that is pending on 
the floor of the Senate.
    So, the committee will stay in brief recess. [Recess.]
    The Chairman [presiding]. Gentlemen, it looks like you are 
having a nice conversation. Would you like to share any of that 
with me?
    Mr. Kara-Murza. Please forgive--[Laughter.]
    The Chairman. No, no, no. I actually would like to just 
leave it open. I know you had 5 minutes for comments and I very 
much appreciate your reference to the Magnitsky Act. I wonder 
if there is anything else, from a personal standpoint, you 
would like to share with us while you are here. You heard the 
first two witnesses, from a professional standpoint. I know 
there were a number of questions from committee members about 
things that we could be doing that we are not doing. Do you 
have any observations relative to additional pressure on Russia 
or relative to what is happening internally?
    I know you did not ask for help. I heard that in your 
testimony. And I know you said ``remain true to our values,'' 
but, are there other things we could be involved in on top of 
that?
    Mr. Kara-Murza. Thank you, Chairman Corker. Thank you for 
the question. And also, thank you for your leadership on the 
global Magnitsky Act, which has recently been marked up by the 
committee, and also for the Senate Resolution number 78, which 
is--was dedicated to the memory of Boris Nemtsov, and which, as 
one of its points, tasked the U.S. Government with raising this 
question of the investigation and the progress, or the lack 
thereof, in the investigation every time they meet with the 
Russian Government counterparts. And that is very important. 
And thank you for this.
    And on your question, I think, first of all, it is very 
important to distinguish--and sometimes, you know, even 
informed commentators make this mistake; they use a shorthand 
by saying ``Russia,'' when what they actually mean is the Putin 
regime and the Kremlin and the behavior of the Putin regime. 
And obviously, for me, as a Russian citizen, that is a pretty 
important difference. And I think these things should not be 
confused with each other. And the current regime, of course, is 
not the product of a democratic election; it is not the product 
of the free will of the Russian people. And I think it is 
important to bear this in mind.
    And on the question of what could be done, I think, 
frankly, a more robust and more active implementation of the 
Magnitsky Act is the single most important thing that I would 
mention in this regard. Of course, this act targets not just 
those implicated in the Magnitsky case itself, but Section 4(b) 
of this act widens its scope to other gross human rights 
abuses. And, you know, there has been--I think, if I am not 
mistaken, there have been 39 people added to the U.S. Magnitsky 
list since the law came into force, but most of them have been 
low- or mid-level human rights abusers. And, of course, they 
should be on the list, too, but, as I mentioned in the opening 
statement, I think it is very important not to have any glass 
ceilings, in terms of rank and influence.
    The Chairman. From your perspective, why do you think 
mostly low-level indivivuals have been targeted?
    Mr. Kara-Murza. Well, it is probably not for me to comment 
on the--you know, on the motivations behind the U.S. 
administration's actions. Again, I am not an American; I am a 
foreigner. And I do understand----
    The Chairman. I'm only asking from your perspective.
    Mr. Kara-Murza [continuing]. I do understand that there are 
rigid criteria built into the law itself, so there have to be--
there has to be clear evidence. But, I think there, frankly, is 
clear evidence about very high-profile and high-ranking human 
rights abusers within the current Kremlin regime. And there 
have been media reports here in the U.S. that, for instance, 
Ramzan Kadyrov, whom I mentioned, and General Bastrykin, the 
head of the investigative committee, have both been put on the 
classified part of the Magnitsky Act. And, frankly, I think, in 
my personal view, the most important aspect of this act is the 
public naming and shaming of human rights abusers. I see no 
reason why these individuals should not be placed on the open 
list.
    In early 2014, when Mr. Nemtsov came here for the last 
time, he had several meetings here on the Hill with members of 
leadership of both parties in both houses, and he suggested 
several names of high-profile human-rights abusers in the Putin 
regime that could be added to the list. One of those was 
General Bastrykin. Another was Mr. Churov, the now former head 
of the Central Election Commission who was responsible for 
covering up the mass fraud in the 2011 and 2012 electoral 
cycle, and earlier as well. And I think--I believe there were 
13 names that Mr. Nemtsov suggested be put on the list. And so 
far, not a single one has been put on the list.
    A year ago, former Russian Prime Minister Mikhail Kasyanov 
and I came here and also had several meetings here on the Hill, 
and we suggested that the names of Kremlin propaganda 
officials, who call themselves journalists, but who are not, 
they are state officials involved in, effectively, state-
sponsored incitement against those who oppose Mr. Putin's 
regime--and we suggested that, in particular, those who are 
engaged in incitement against Boris Nemtsov, who called him a 
traitor, who called him a foreign agent, who called him an 
enemy of Russia, who said that he is financed by the U.S., who 
said that he would have broken Nazi troops had he been in 
Moscow in 1941, and so on and so forth--and I am not making 
this up; these are direct quotes--that these people who are 
responsible for incitement should also be put on the sanction 
list. Well, so far, not one of those has been put on the 
sanctions list.
    So, I really think that the most effective way, and, 
frankly, the most principled, the most honorable way to deal 
with those human rights abusers is to place them on that 
sanctions list, because the unique thing, and the 
groundbreaking thing about the Magnitsky Act, was that it was 
not sanctioning a country. These--they are not sanctions 
against Russia. They are not even sanctions against the Russian 
Government.
    The Chairman. Right.
    Mr. Kara-Murza. These are sanctions against specific 
individuals personally involved in human rights abuse and 
personally involved in corruption. And I think this is the way 
it should be done.
    The Chairman. In your observation, when somebody is placed 
on the list, is it truly a significant punishment to be 
sanctioned in that manner?
    Mr. Kara-Murza. Thank you. This is a very important 
question. And we can talk about many similarities that exist 
between the Soviet regime and what we have in our country 
today. We have political prisoners, we have media censorship, 
we have the lack of free and fair elections, and so on and so 
forth. But, for all these similarities, there is also one very 
important difference, and that is that members of the Soviet 
Politburo did not hold their bank accounts in the West, they 
did not send their kids to study in the West, they did not buy 
real estate and yachts in the West. Leaders of the current 
regime and Kremlin-connected oligarchs do that. And I think 
there is a double standard, and this hypocrisy has to stop. And 
we certainly know from experience that, when high-ranking human 
rights abusers are placed on the sanction list, it has a very 
strong effect. And I can give you just one example.
    In 2007, when there was this whole controversy about the 
relocation of a Soviet war memorial in Tallinn, in Estonia, 
members of the Nashi, which was a pro-Kremlin youth group, 
engaged in a harassment campaign against the then Estonian 
Ambassador to Moscow, Marina Kaljurand. She is currently the 
Estonian Foreign Minister. They were following her everywhere, 
trying to sabotage her press conferences, throwing things at 
her, and shouting abuse, and so on and so forth. And so, the 
Estonian Government decided to impose visa sanctions on Mr. 
Yakimenko, who was then the serving minister in Mr. Putin's 
government, Minister for Youth. And he was the de facto leader 
of this group. So, he was placed on a visa ban list. And, 
because Estonia is a member of the Schengen Agreement, this 
visa ban had a Schengen-wide force, so he could not travel to 
any Schengen country, which is most of the European Union.
    So, for 9 years that have passed since then, Mr. Yakimenko 
has been desperately trying to get himself off that list, off 
the visa black list. And, for all those 9 years, for all the 
other transgressions and all the other human rights abuses that 
are happening in our country, there has not been a single case 
of harassment against a foreign diplomat stationed in Moscow. 
And I think this is all you need to know about the effect and 
the effectiveness of these types of personal targeted measures 
against those human rights abusers.
    The Chairman. Mr. Satter, do you want to add anything?
    Mr. Satter. Well, I think that the future of Russia 
depends--I have been involved with Russia for many years, and 
have thought a great deal about it. I think the first 
priority--the danger of participating in elections, which the 
regime controls, although I am not opposed to it, is that it 
gives legitimacy to the regime and actually, under controlled 
circumstances, gives the impression to the population that what 
is taking place is a real democratic process. This is the same 
dilemma that people face--for example, I faced it one time when 
I was receiving invitations to appear on Russian television, 
that I did not want to take part in a performance that, in 
fact, was not honest and was--did not conform to normal ethical 
rules. I think--but, to--but, the--there is some value in 
taking part in these elections, as long as those who do so do 
not nurture illusions that this can change the regime. It 
cannot. That is a process that is controlled by the regime. The 
regime will be changed in other ways.
    Most important, in my view, requirement for Russia's future 
is something--a Russian equivalent of the South African 
Commission on Truth and Reconciliation. The 25 years of post-
communist history are not well understood. And, unfortunately, 
the abuses began not with Putin--Putin is the handpicked 
successor of Boris Yeltsin--they began with Yeltsin. And the 
crimes began with Yeltsin. They began it with the massacre at 
the Ostankino television tower in 1993, and the shelling of the 
Russian parliament. The carpet-bombing of Grozny in 1995, in 
which the--it is estimated 20,000 people were killed, all of 
them--almost all of them civilians. Now it appears that the 
1996 elections in which Yeltsin was, quote/unquote, 
``reelected'' were falsified. And, most important of all, the 
circumstances under which Putin became the new Russian 
President--he became the President in the aftermath of the 
bombing of four apartment buildings in Russia that terrified 
the entire country, galvanized support for a new and even more 
bloody war in Chechnya, and created the conditions for Putin, 
who had a 2-percent approval rating in the country, to become 
the national savior and the country's new President. When he 
took over as President, he brought with him his KGB-FSB 
entourage, and they proceeded to eliminate what was left of the 
freedoms that had been tolerated under Yeltsin.
    The precondition for Putin's coming to power was the 
criminalization of Russia under Yeltsin, because only a 
provocation like the apartment bombings could save such a 
kleptocratic regime as the one that was put in place by Yeltsin 
under conditions of formal democracy. This group that is now in 
power will do anything to hold onto power, but one of the most 
important instruments at their disposal is the ability to 
confuse the population about the population--about the people's 
true interests and their true history.
    So, the first requirement for Russia's resurrection, in my 
view, is to clarify all of the historical episodes--the 
apartment bombings, the Nordost Theater siege, the Beslan 
school massacre in 2004 in which children and parents in a 
gymnasium who were held hostage by Chechen terrorists were 
attacked by Russian troops with flamethrowers and grenade 
launchers, and burned alive, and, of course, the war--the wars 
in Georgia and Ukraine.
    Only on the basis of a true--truthful understanding of the 
country's history will it be possible to change the 
psychological state of the country, making it realistic to 
create a genuinely law-based system. And once that 
psychological and ethical basis exists, it is important for 
Russia to have what it lost in 1918, when the Bolsheviks 
dispersed the constituent assembly, a new constituent assembly, 
in order to create a real Constitution, not the Constitution 
that was created in the wake of the destruction of the Russian 
Parliament in 1993 in order to suit the power requirements of 
Yeltsin.
    Under those circumstances, and with the understanding that 
those parts of the Russian Federation, including the Caucasus 
that wish to detach themselves and have an independent national 
existence, be given the right to do so, the conditions will 
then exist for Russia to transform itself into a democratic 
country.
    It must be pointed out that, as a result of 25 years of 
post-communist history, Russia has acquired an educated, 
sophisticated, worldly middle class for which this type of 
regime is absolutely inappropriate. And that process is going 
to continue as globalization continues and as people take 
advantage of the exposure to free information, which was denied 
them under the Soviet regime.
    The Chairman. Well, we thank you both for being here.
    We will have a number of questions coming from people who 
were not able to be here for the second panel. We will try to 
have all those in by the close of business on Thursday. If you 
all could, please respond fairly quickly to those, though we do 
know you do not have as many staff as the previous two 
witnesses.
    We thank you for the light you have shed here today, for 
your personal experiences, and for your help. We look forward 
to having you back again in the near future.
    With that, the committee is adjourned.
    Thank you.
    [Whereupon, at 4:35 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

             Answers to Questions for the Record Submitted 
                  to Victoria Nuland by Senator Cardin


    Question 1.  Venerable NGO Golos,\1\ which has monitored every 
Russia election since the fall of the Soviet Union, has come under 
increased pressure from the Putin regime and may have to close its 
doors before September's parliamentary elections.
---------------------------------------------------------------------------
    \1\ ``Golos'' is the Russian word for ``voice.''

  <diamond> What is the State Department's position on the Putin 
        regime's targeting of Golos and what diplomatic tools can we 
        bring to bear to pressure the Putin regime to stop its 
---------------------------------------------------------------------------
        harassment of the organization?

    Answer. We continue to be deeply concerned about increasing 
restrictions on the freedoms of expression, association, and peaceful 
assembly in Russia. By restricting the work of Golos and other civil 
society organizations in Russia, the so-called ``foreign agent law'' 
law encroaches on the right of every Russian to freedom of association. 
Civic organizations such as Golos, AGORA, and Memorial are essential 
elements of societies that respect the rule of law and accountable 
government. The Russian people deserve a government that values, rather 
than undermines, the contributions of civil society.
    Recent harassment and fines directed toward Golos are particularly 
troubling as Russia prepares for parliamentary elections in September. 
A government effort to shutter one of Russia's most important election 
watchdogs raises questions about the government's commitment to free 
and fair elections. The Department will continue to raise these 
concerns at the highest level with Russian government interlocutors and 
in our public statements. In the OSCE and other multilateral fora we 
will also continue to call publicly on the Russian Government to uphold 
the freedoms of expression, association, and peaceful assembly, in 
keeping with Russia's international obligations and the rights 
enshrined in Russia's own constitution.


    Question 2.  The New York Times reported last week on the abusive 
online harassment by pro-Russian forces of a Finnish reporter whose 
work focused on the prevalence of Russian media trolls. According to 
the New York Times, these trolls bombard websites and social media with 
fake news and commentary denunciating Russia's critics and Western 
institutions. This is just one example of Putin's use of soft power 
that seeks to discredit and divide the West.
    We have put considerable effort into confronting ISIS on the 
internet, but I am concerned that we do not have a coordinated strategy 
to address Russian propaganda. What is the administration's strategy to 
address this onslaught of Russian propaganda, funding of far right 
parties in Europe, and other tools of soft power that take aim at the 
West?

    Answer. The State Department is leading a coordinated effort to 
support the free flow of information, build the capacity of independent 
local media, and refute disinformation, particularly in countries where 
Russian-language television content is dominated by Kremlin-backed 
broadcasts.
    The Department employs a combination of short-term messaging 
strategies and long-term programs to build resilience and the capacity 
to recognize and reject Russian Government disinformation. We have 
formed a cadre of Russian-speaking officers to engage with the media 
and by employing a Russian-language, policy-oriented Twitter handle, 
and developed exchanges to encourage independent media voices, 
including workshops on digital skills and investigative journalism. 
These efforts are focused on three distinct audiences: Western 
Europeans, Russian-speaking populations writ large, and Russians 
themselves.
    In Western Europe, we work to underscore allied unity and bolster 
resolve to work together on global challenges that include Russia's 
revanchist policies. We also offer journalists from Western Europe to 
Central Asia opportunities to have a first-hand view of the realities 
on the ground in countries, like Ukraine, where the Kremlin often 
distorts the facts.
    For Russian-speaking audiences in Eastern Europe and Eurasia, we 
offer information and programming alternatives while bolstering the 
capacity of civil society and independent journalists to identify and 
dispel disinformation. Inside Russia, we work with media--both 
traditional and social--to maintain a dialogue with the public through 
programs that accurately describe U.S. society and our values. The U.S. 
Embassy in Moscow facilitates multiple people-to-people exchange 
programs, including Fulbright Scholarships, International Visitors 
Leadership Program, the Peer-to-Peer Program; hosts approximately 70 
high-level speakers per year; and maintains close working contacts with 
a network of more than 75,000 alumni of U.S.-funded exchange programs.
    The Bureau of European and Eurasian Affairs Deputy Assistant 
Secretary (DAS) for Public Diplomacy chairs an Interagency Strategic 
Communications working group to coordinate messaging between EUCOM, 
NATO, State, OSCE, and others. The DAS also chairs the Ukraine/Russia 
Public Engagement Working Group within the Department, which meets 
weekly to develop media and engagement strategies to highlight the 
country's successes.
    The Department hosts a Russian language communications platform, 
which connects 150 plus officers across the world for rapid information 
sharing, analysis, and pushback. The Bureau of Public Affairs manages 
the @USApoRusski Twitter handle, which has attracted 8,700 plus 
followers in less than a year.
    Finally, as part of a broader effort to counter Russian pressure, 
and in parallel with our public diplomacy work, in FY 2017, the 
Department is requesting approximately $121 million in bilateral ESF 
assistance funding to support civil society and independent media in 
the Europe, Eurasia, and Central Asia regions, in addition to the 
funding that is centrally managed by the State Department's Bureau of 
Democracy, Human Rights and Labor (DRL) and USAID.


    Question 3.  The Putin regime's corrupt practices, including its 
violations of property rights and silencing of NGO's monitoring 
corruption, fuels economic and political instability inside Russia and 
influences its actions abroad.

  <diamond> Do you support efforts to use U.S. tools, like indictments 
        in U.S. courts, to pursue corrupt figures in Russia?

    Answer. Secretary Kerry reaffirmed the administration's commitment 
to combating corruption at the Anti-Corruption Summit in London in May. 
Corruption drives political instability, erodes trust between citizens 
and government, cripples basic functions of the state like security and 
justice, fuels violent extremism, and stifles economic prosperity and 
human rights. The administration has deepened its commitment to 
increasing fiscal transparency and fighting corruption, including 
through initiatives such as the International Anti-Corruption 
Coordination Center (IACCC). The United States has also committed to 
co-hosting with the United Kingdom the first meeting of the Global 
Asset Recovery Forum in 2017 in Washington, DC. The U.S. also remains 
committed to collaborating with the international community to fight 
against corruption.
    We have routinely voiced our concerns about corruption with the 
Russian Government, and remain concerned about corruption in Russia at 
all levels of the government. We strongly urge the government of Russia 
to support efforts, including by civil society and non-governmental 
actors, to promote increased transparency and to counter corruption.


    Question 4.  The Magnitsky Act, in addition to sanctioning those 
who were complicit in Sergei's murder, sanctions those who commit gross 
human rights violations inside Russia.

  <diamond> Given the deteriorating human rights situation inside 
        Russia, how will the administration use this authority to 
        sanction more human rights violators under the Act?

    Answer. Over six years after Sergei Magnitsky's death, we remain 
disturbed by the impunity for this and other violent crimes against 
activists, journalists, and the political opposition, as well as the 
growing atmosphere of intimidation for those who work to uncover 
corruption or human rights violations in the Russian Federation.
    The Department of State continues to fight impunity for human 
rights violations in Russia through implementation of the Magnitsky 
Act. On February 1, in concert with the Treasury Department, we added 
five new names to the list of persons sanctioned under this act, 
bringing the total number of publicly listed names to 39. This is a 
significant list that will continue to promote accountability for 
Russian officials for their role in the Magnitsky case or for gross 
violations of human rights.
    Work on this list is ongoing, but we cannot comment on specific 
potential future designations. Placing a name on this list is a serious 
undertaking that requires a determination that a person meets one or 
more of the criteria for inclusion on the list, and that determination 
must be supported by credible information. The law sets a high bar for 
conduct that would qualify an individual for listing under the gross 
violation of human rights prong and consequently we look very carefully 
at information we receive and assess whether it would support a 
determination that an individual fits the criteria for designation. 
Where there is insufficient credible information, we are unable to list 
individuals.


    Question 5.  Russia's implementation of its arms control agreements 
presents a mixed picture. On one hand, the United States and Russia 
continue to successfully implement the New Start Treaty and other arms 
control agreements. However, Russia is in clear violation of the 
Intermediate Nuclear Forces (INF) Treaty, and there are compliance 
concerns with the Open Skies Treaty. What diplomatic steps have we 
taken to address our concerns about Russian compliance with these 
treaties and what mechanisms exist to bring the Russians into 
compliance?

    Answer. Our priority is for Russia to be fully compliant with the 
Intermediate-Range Nuclear Forces (INF) Treaty and the Open Skies 
Treaty to ensure the continued viability of both treaties, which have 
long contributed to security and stability in Europe and remain in the 
interests of the United States and our allies.
    Regarding Russia's violation of the INF Treaty, we have sought to 
isolate Russia diplomatically and persuade Russia to return to 
compliance. Senior administration officials have raised U.S. concerns 
over Russia's violation of the INF Treaty dozens of times with Russian 
officials. In consultation with Allies, we are reviewing a range of 
appropriate options should Russia persist in its violation and we will 
not allow Russia to gain a significant military advantage through its 
INF violation.
    We continue to have concerns about conduct by Russia that raises 
questions about its adherence to obligations under the Open Skies 
Treaty--namely, the denial or restriction of flights over parts of its 
territory, including Kaliningrad, central Moscow, and near its border 
with Georgia, and inadequate air traffic control facilitation for Open 
Skies flights. We are working closely with our Allies on an approach to 
address these issues with Russia. These issues also continue to be 
raised with Russia, bilaterally and through the Open Skies Consultative 
Commission (OSCC).


                               __________

             Answers to Questions for the Record Submitted 
                 to Victoria Nuland by Senator Isakson

    Question 1.  Are there concerns that Russia will not meet its 
treaty obligations by February 2018?

    Answer. We remain confident that the Russian Federation is 
committed, as is the United States, to meeting the New START Treaty's 
central limits by the end of the seven-year reduction period in 
February 5, 2018.


    Question 2.  Should Russia fail to meet its treaty obligations--as 
it has with the Intermediate-range Nuclear Forces Treaty, what will the 
repercussions be?

    Answer. We remain confident that the Russian Federation is 
committed, as is the United States, to meeting the New START Treaty's 
central limits by February 5, 2018. If they are not met, any 
repercussions would be for the next Presidential administration to 
decide.


    Question 3.  Have there been any repercussions for its failure to 
comply with the 1987 Intermediate-range Nuclear Forces Treaty?

    Answer. We have conveyed to Russian officials that we expect the 
Russian Federation to cease any further development, testing, 
production, and deployment of the missile system that is noncompliant 
with the Intermediate-Range Nuclear Forces (INF) Treaty and to 
eliminate the existing missiles and launchers in a verifiable manner. 
We have consulted our European and Asian allies every step of the way 
and are maintaining cohesion with them. While this treaty violation is 
only one element of Russia's overall bellicose attitude to its 
international obligations, it is an element that contributes to 
Russia's isolation.
    We continue to pursue the diplomatic resolution of U.S. concerns 
with Russia, as the INF Treaty benefits the security of the United 
States, our allies, and Russia, and contributes to stability in Europe 
and the Asia-Pacific region. The priority of the United States is to 
return Russia to compliance to ensure the continued viability of the 
Treaty, and we continue to engage the Russian Government to resolve our 
concerns.
    The administration is committed to ensuring that Russia gains no 
military advantage from its violation of the INF Treaty. Russia's 
violation of the Treaty, and its policies that challenge the European 
security order, are not going unanswered. The administration has 
determined that we need to consider Russian actions with regard to the 
INF Treaty in the context of its overall aggressive and bellicose 
behavior that flouts international legal norms and destabilizes the 
European security order.


    Question 4.  As you may know, President Putin made comments in 
April stating that the administration's plan to end the MOX program 
will deviate from our obligations under the Plutonium Management and 
Disposition Agreement (PDMA). Indeed, Putin skipped this year's Nuclear 
Security Summit citing the cancelling of the MOX program as the reason.

  <diamond> Are his comments valid?

  <diamond> From the State Department's perspective, does this 
        complicate our efforts to get Russia's compliance on key arms 
        control treaties--including New START?

    Answer. We regret Russia's decision not to participate in the 2016 
Nuclear Security Summit. We hope that Russia still shares the view that 
securing nuclear materials and combating nuclear terrorism are 
priorities well worth the personal attention of world leaders. The 
Summit was a unique opportunity to spur more aggressive action toward 
success on these important security priorities.
    The Plutonium Management and Disposition Agreement (PMDA), which 
the United States and the Russian Federation signed in 2000 and which 
entered into force in 2011, provides a path for the Parties to consult 
and agree on disposition methods that do not involve irradiation in 
nuclear reactors. The PMDA does not set binding timelines. The United 
States has not violated this agreement and any suggestions to the 
contrary are inaccurate. We remain fully committed to meeting our 
obligations under the agreement. In addition, Mr. Putin's suggestion at 
the time that the United States seeks to retain a ``breakout 
capability'' for additional weapons production is simply false.
    As stated in the most recent Annual Report on the Implementation of 
the New START Treaty, which was provided to Congress in January 2016, 
the United States certified, based on information available as of 
December 31, 2015, that the Russian Federation was in compliance with 
the terms of the New START Treaty. We do not consider President Putin's 
comments regarding the Mixed Oxide Fuel (MOX) program have any impact 
on New START implementation.


    Question 5.  Has the United States allowed some areas of 
noncompliance to slide in order to gain Russia's support in other 
foreign policy objectives, i.e. Iran?

    Answer. No. The United States takes matters of treaty compliance 
very seriously. We are not afraid to raise our concerns with our treaty 
partners or publicly.


    Question 6.  Russia has failed to recognize the sovereignty of many 
of its neighbors, which destabilizes the region. Beyond our engagement 
with NATO partners, can you discuss U.S. efforts to counter Russia's 
increasing presence and influence in places like Georgia, Armenia, and 
Syria?

    Answer. Georgia: Despite Russia's warnings to Georgia, the United 
States continues to support Georgia's Euro-Atlantic integration 
aspirations. The United States provided more than $75 million in 
foreign assistance to Georgia in FY 15 to promote democratic, economic, 
judicial, and other reforms, and to assist the country in achieving its 
goal of integration with Euro-Atlantic institutions. U.S. foreign 
military financing for Georgia seeks to enhance ties to NATO by 
increasing the interoperability of its armed forces with NATO, 
strengthening its institutional capacity to train, field, and care for 
its forces, and modernizing Georgia's defense institutions.
    The United States also provides assistance to improve access to 
independent information in Abkhazia and South Ossetia and to promote 
national unity throughout Georgia. We continue to press Russia to give 
the EU Monitoring Mission access to both sides of the Administrative 
Border Lines. We also participate in the Geneva International 
Discussions and work with our partners at the Organization for Security 
and Cooperation in Europe (OSCE) to support Georgia's sovereignty and 
territorial integrity and reach a lasting settlement to the conflict.

    Armenia: The United States provided approximately $27 million in FY 
2014 and more than $16 million in FY 2015 in foreign assistance to 
Armenia in support of reforms that are key to Armenia's democratic 
development and European integration. Despite Armenia's decision to 
join the Eurasian Economic Union (EEU) on December 4, 2014, the United 
States will continue to support Armenia's links to Europe, as well as 
support its efforts to increase its energy security and economic 
prosperity. The United States remains engaged in diplomatic efforts to 
resolve the Nagorno-Karabakh conflict peacefully and to reopen 
Armenia's borders with Azerbaijan and Turkey. We maintain positive and 
constructive military-to-military cooperation, including by supporting 
Armenia's contributions to international peacekeeping operations, 
helping to professionalize its forces, and inviting select military 
officer to train in the United States through our security assistance 
programs.

    Syria: The United States will continue our campaign to degrade and 
defeat Da'esh and support a moderate opposition that is essential for a 
political solution to the Syrian crisis. We have pressured Russia to 
use its influence to compel the Asad regime to stop its attacks against 
innocent civilians during the cessation of hostilities and to agree to 
a political transition through talks in Geneva with the United Nations. 
We have also repeatedly conveyed our concerns to Russian officials that 
its intervention in Syria has exacerbated, and will continue to 
exacerbate, the sectarian divide and the humanitarian crisis, unless a 
political solution can be reached. We are holding Russia to its 
commitments, including in the implementation of UN Security Council 
Resolution 2254, which lays out the steps for a Syrian-led political 
transition, and which Russia supported in the Security Council.


                               __________

             Answers to Questions for the Record Submitted
                  to Victoria Nuland by Senator Boxer


    Question 1.  How is the United States working with media 
organizations and civil society in Russia to support democracy, free 
speech and the rule of law in Russia? How is the United States 
encouraging political openness in Russia?

    Answer. Despite the closing space for civil society, Russian 
organizations and individuals continue to express a desire to engage 
with the United States. As long as this continues to be the case, the 
United States will support opportunities for peer-to-peer, educational, 
cultural, and other regional programs that create opportunities to 
exchange views and best practices. It is also our position that free 
media and free speech are the best way to fight propaganda. We will 
continue to support a number of programs in the region that help build 
the capacity of independent media, and provide legal and physical 
defense of journalists and activists suffering from government 
repression and retaliation.
    We will continue to raise our concerns about the human rights 
situation in Russia at the highest levels, both in public and in 
private. We will continue to speak out against laws and practices that 
serve to impede the work of civil society and contravene the 
fundamental rights of freedom of expression, assembly, and association.
    We spoke out following the tragic murder of Boris Nemtsov, when the 
laws on foreign agents and undesirableorganizations were passed, when 
the offices of human rights groups have been raided, and when the 
Russian Government failed to condemn the threats that Chechen strongman 
Ramzan Kadyrov made against journalists and members of the political 
opposition. We are heartened that there continue to be human rights 
defenders, journalists, and activists willing to continue their work in 
Russia, often at great personal risk, and we stand ready to support 
them. On March 29, Secretary Kerry presented the Department's 
International Woman of Courage Award to Zhanna Nemtsova, Boris 
Nemtsov's daughter, for her courageous activism in her father's memory.
    As Russia prepares for parliamentary elections in September, we 
will continue to call on the Russian Government to foster an 
environment in which dissent is tolerated and those who express 
dissenting views are protected, in keeping with the rights enshrined in 
Russia's own constitution.
    We also will continue to fight impunity for human rights abuses in 
Russia through implementation of the Magnitsky Act. On February 1, in 
concert with the Treasury Department, we added five new names to the 
list of persons sanctioned under this act, bringing the total number of 
publicly listed names to 39. This is a significant list that will 
continue to hold Russian officials accountable for their role in the 
Magnitsky case or other gross violations of human rights.


    Question 2.  What efforts is the United States making to protect 
the rights of LGBTQ individuals in Russia?

    Answer. The promotion and protection of the human rights of LGBTI 
persons is an essential part of the United States' foreign policy. Our 
efforts are guided by President Obama's December 2011 Presidential 
Memorandum on International Initiatives to Advance the Human Rights of 
LGBT Persons, which directs federal departments and agencies to combat 
the criminalization of LGBT status or conduct abroad; protect 
vulnerable LGBT refugees or asylum seekers; enhance assistance to 
protect human rights and advance nondiscrimination for LGBT persons; 
and help ensure swift and meaningful responses to human rights abuses 
of LGBT persons abroad.
    We have spoken out consistently against anti-LGBTI legislation in 
Russia, where a law banning the distribution of so-called ``LGBTI 
propaganda'' to minors, which effectively limits the rights of LGBTI 
citizens and their allies to free expression and assembly. We are also 
concerned that this law appears to have emboldened extremist elements 
to commit attacks on LGBTI citizens. Our Ambassador in Moscow and other 
State Department officials have regularly raised U.S. concerns with 
Russian officials. Embassy Moscow also remains in close contact with 
the LGBTI community in Russia and includes LGBTI activists in 
roundtables, exchanges, and other initiatives. In addition to our 
public statements, we repeatedly have also raised restrictive 
legislation and hate crimes in Russia against LGBT individuals in OSCE 
and other multilateral meetings.


    Question 3.  Russia's continued support for the Asad regime has 
countered the efforts of the United States and our coalition partners 
in Syria and the region. While Russia has played a role in the 
negotiations to end the conflict in Syria, Russia's military 
intervention has bolstered the position of Syrian President Bashar al-
Asad in peace negotiations.
    The administration has asserted that Asad's eventual removal from 
power will be critical to any long-term solution to the Syrian civil 
war.

  <diamond> Given Russia's interests in preserving the Asad regime, are 
        the Russians undertaking actions to help facilitate Asad's 
        eventual departure?

  <diamond> How is Russia working with the Syrian Government to allow 
        for humanitarian relief to areas under the Syrian regime's 
        control?

    Answer. We continue to press Russia to work towards a genuine 
Syrian-led political transition in Syria and to persuade Russia to 
encourage Asad's departure. Russia voted in favor of UN Security 
Council Resolution 2254, which calls for a Syrian-led political 
transition that establishes credible, inclusive and non-sectarian 
governance and a process leading to a new constitution. Russia's 
military and political actions, however, have supported Asad and 
tightened his grip on power. Our diplomatic engagement is intended to 
persuade all parties that there is no military solution to this 
conflict and that we must use the cessation of hostilities to allow 
humanitarian access to populations in need and to provide space for the 
political process to develop.
    We continue to press the Russians to use their influence with the 
regime to allow full access for humanitarian aid on the basis of 
assessments made by the UN, not the regime. Since the Cessation of 
Hostilities (CoH) went into effect, Russia has been helpful in 
convincing Asad to allow the passage of some humanitarian aid convoys. 
Since the beginning of 2016, the UN--in coordination with the ICRC and 
Syrian Arab Red Crescent--has reached over 820,000 civilians in 
besieged, hard-to-reach, and other priority locations. One recent 
positive development concerns Daraya, where on June 9 convoys brought 
food assistance to the town, which had not received humanitarian 
assistance since 2012. Despite these successes, far too many 
communities in Syria remain in need and Russia needs to do more to 
honor its commitments to use its influence with the regime to address 
these humanitarian emergencies.


                               __________

               Answers to Additional Questions Submitted
                  to Victoria Nuland by Senator Perdue

    Question 1.  As you know, in its 2016 Arms Control Compliance 
Report, the State Department found that for the third year in a row, 
Russia stands in violation of the INF treaty because it continues to 
develop, possess, produce, and test ground-launched cruise missiles 
(GCLMs) and launchers with medium-range capabilities. As State's report 
tells us, the Department has ``as was the case in previous years . . . 
raised concerns'' with Russia on repeated occasions to resolve this 
issue. It appears that our efforts to raise our concerns with Russia 
aren't working, and they repeatedly deny that they are in violation 
with the INF Treaty.

  <diamond> What more can be done to pressure Russia to return to 
        compliance with the INF Treaty?

  <diamond> What are the implications for U.S. security interests of a 
        continued failure by the Russians to be in compliance with INF?

    Answer. We have sought to isolate Russia diplomatically and 
persuade Russia to return to compliance. senior administration 
officials have raised U.S. concerns over Russia's violation of the INF 
Treaty dozens of times with Russian officials. We continue to engage 
Allies and encourage them to tell Russia the importance that they place 
on the INF Treaty for European security.
    We and NATO believe that the INF Treaty is integral to European 
security. In consultation with Allies, we are reviewing a range of 
appropriate options should Russia persist in its violation. We will not 
allow Russia to gain a significant military advantage through its INF 
violation. Russia's violation of the INF Treaty has been factored into 
our response to Russia's overall aggressive behavior.


    Question 2.  We've seen incident after incident in which Russian 
aircraft are performing dangerous and irresponsible maneuvers near 
American aircraft and naval vessels. This is in direct violation of the 
1972 agreement (on the Prevention of Incidents On and Over the High 
Seas), in which Article IV states that, ``commanders of aircraft of 
parties shall use the greatest caution and prudence in approaching 
aircraft and ships of the other party operating on and over the high 
seas, and . . . shall not permit simulated attacks by the simulated use 
of weapons against aircraft and ships, or performance of various 
acrobatics over ships.''

  <diamond> What diplomatic efforts is the State Department pursuing, 
        if any, to deter this Russian military aggression?
  <diamond> Does State coordinate with DoD on any efforts to deter this 
        aggression? If so, can you speak to what is being done at the 
        DoD to discourage this continued aggressive military behavior 
        from Russia? Are the Russians aware of the fact that they're 
        violating this 1972 agreement with us? Do they care?

   The Departments of State and Defense routinely coordinate on strong 
        responses to Russia's unsafe and unprofessional behavior. For 
        instance, we have vigorously protested the actions of Russian 
        aircraft over the Baltic Sea on April 11-12, April 14, and 
        April 29 to the Government of the Russian Federation. I, as 
        well as Ambassador Tefft and the U.S. Embassy Moscow staff, 
        formally protested these incidents at senior levels with the 
        Ministry of Defense, the Ministry of Foreign Affairs, and the 
        Russian Security Council. In addition, Secretary Kerry raised 
        this issue directly with Foreign Minister Lavrov. In 
        Washington, the Department of Defense has repeatedly protested 
        the Russian actions to the Russian Ambassador. On April 20, the 
        United States and several of our NATO Allies protested these 
        incidents during a NATO-Russia Council meeting. On each 
        occasion, we have stressed the risk that such behavior could 
        result in loss of life, and we called for Russia's aircraft to 
        observe international standards and professional safety 
        practices.

   Bilateral discussions under the 1972 Agreement on the Prevention of 
        Incidents On and Over the High Seas (INCSEA) were held in 
        Moscow on June 8. I refer you to the Department of Defense for 
        details, but we understand the topic of unsafe Russian flights 
        was discussed in detail and the two sides also considered 
        measures to mitigate the risks of accidents occurring.
    In public remarks and in Russian interactions with us about the 
incidents, Russian officials have claimed that they are flying at safe 
distances, have inaccurately characterized certain aspects of the 
incidents, and have repeatedly asserted that their actions are a 
response to our operations in areas they deem politically sensitive.


    Question 3.  What efforts are being made to encourage a Russian 
withdrawal from Georgia?

    Answer. The United States strongly supports Georgia's sovereignty, 
independence, and territorial integrity within its internationally 
recognized borders. We participate in the Geneva International 
Discussions, the forum that addresses the ongoing security and 
humanitarian consequences of the conflict in Georgia. In Geneva, our 
primary objective is to draw attention to Russia's violation of the 
August 2008 ceasefire agreement through its continuing occupation of 
Georgia's Abkhazia and South Ossetia regions. We strongly object to 
Russia's policy of ``borderization,'' through which Russia and the de 
facto authorities in Abkhazia and South Ossetia harden the 
Administrative Boundary Lines separating the occupied territories from 
the rest of Georgia. We continue to push Russia to end its military 
occupation of the territories and reverse its recognition of their 
purported independence, permit unfettered international access to the 
territories, and facilitate freedom of movement across the 
Administrative Boundary Lines for all citizens of Georgia.


    Question 4.  How can we prevent Ukraine from becoming a similar 
frozen conflict?

    Answer. The best opportunity to resolve the conflict in eastern 
Ukraine is to seek the full implementation of the Minsk agreements. We 
continue to work with our Normandy partners to support their efforts to 
accelerate Minsk implementation.
    At the same time, we must maintain transatlantic unity on 
sanctions, which must remain in place until Moscow fully implements its 
Minsk commitments.


    Question 5.  What are the lessons learned from Georgia that could 
be applied to Ukraine-both in dealing with Russian aggression, but also 
in institution building and countering corruption and propaganda?

    Answer. We believe that the Minsk agreements are the best and only 
way to achieve peace in eastern Ukraine. Since the start of the crisis 
in Ukraine, the United States, EU, G-7, and other nations have worked 
in close cooperation to develop sanctions that increase pressure on 
Russia and support Ukraine's sovereignty and territorial integrity. The 
pressure of sanctions and the framework of the Minsk agreements provide 
an opportunity to confront Russian aggression.
    We have been very clear with Moscow that sanctions will remain in 
place until Russia fully implements its commitments under the Minsk 
agreements and returns control of Crimea to Ukraine. We are prepared to 
increase costs on Russia if it takes new aggressive actions in Ukraine.
    As in Georgia, the United States will implement long-term 
assistance programming in Ukraine to build democratic institutions, 
promote economic development, combat corruption, and strengthen Euro-
Atlantic integration. U.S. assistance in anti-corruption and security 
has been critical in aiding both Ukraine and Georgia in confronting 
Russian aggression. In Ukraine, we have committed over $600 million in 
training and equipment since the start of the crisis to help Ukraine's 
forces monitor and secure Ukraine's borders, operate more safely and 
effectively, and defend their country's sovereignty and territorial 
integrity. Our security assistance has saved lives while helping to 
build Ukraine's long-term defense capacity.
    The Department of State's Bureau of International Narcotics and Law 
Enforcement achieved one of our most visible successes in U.S. 
assistance programming in fostering the establishment and rollout of 
patrol police in every major Ukrainian city. This programming is 
similar to that implemented in Georgia. The patrol police have become a 
symbol of a new Ukraine--a force of highly-trained professionals 
(including over 20 percent women) whose mandate is to protect and serve 
the public. In a recent nationwide poll, the police have gone from the 
least trusted institution in Ukraine to the third most trusted, after 
the Army and the Church.


    Question 6.  This February, James Clapper, the Director of National 
Intelligence (DNI) testified that the nation of Georgia, despite all 
its progress on western integration and domestic reforms, is at 
increasing risk from Russian aggression and pressure. The DNI reported 
that, in part, Russia is capitalizing on increasing frustration in 
Georgia about the slow pace of western integration. Russia is taking 
advantage of the space created due to the seeming ambivalence on 
Georgia's NATO membership and upcoming parliamentary elections in 
October.

  <diamond> Can you inform us about the administration's current 
        efforts to support Georgia's western integration? For example, 
        what more can be done to bring Georgia into NATO and 
        demonstrate a strong U.S. political and security commitment to 
        Georgia?

  <diamond> Are we engaging with our EU allies to help support 
        Georgia's integration into the European Union?

    Answer. The U.S. Government stands by the commitment Allies made in 
Bucharest that Georgia will become a member of NATO, and we continue to 
provide tangible support to move Georgia towards membership. Our 
bilateral security assistance, which totaled approximately $60 million 
in FY 2015, enhances Georgia's NATO interoperability, enabling Georgia 
to deploy with NATO and EU missions and further its integration with 
western security institutions. U.S. support for Georgia within a NATO 
context includes contributing to a NATO Trust Fund to clear landmines 
and explosive remnants of war in Georgia and significant contributions 
to the Substantial NATO-Georgia Package (SNGP). The SNGP was first 
approved in 2014, and new projects will be considered at this year's 
NATO Summit, such as increased exercises with NATO and support in areas 
like strategic communications and cyber defense. One American serves as 
Deputy on the Core Team charged with implementing the SNGP and another 
heads the NATO Liaison Office in Tbilisi. In addition, the United 
States lobbied-and helped secure-a visit by Allied Permanent 
Representatives to Georgia later this year. At the last Summit, we also 
supported designating Georgia as one of NATO's Enhanced Opportunity 
Partners (EOPs). Now that Georgia has this status, they are included in 
Alliance activities and political discussions as often as is 
practicable. Only five other nations hold this status.
    To speed Georgia's integration with the EU, U.S. technical 
assistance helps Georgia achieve the reforms necessary to implement its 
Deep and Comprehensive Free Trade Area with the EU as part of the 
Association Agreement it signed in 2014. Priorities include 
accelerating integration with EU energy markets and increasing 
generation of hydropower and other alternative energy sources, as well 
as promoting sustainable economic growth in the areas of agriculture, 
small and medium enterprises, and workforce development. The United 
States strongly supports visa-free travel for Georgian citizens within 
the Schengen travel zone and has encouraged our European partners to 
grant political approval now that Georgia has met all the technical 
requirements for visa liberalization.
    For FY 2016, the United States plans to provide approximately $80.6 
million in assistance to support Georgia's reforms and Euro-Atlantic 
trajectory-this represents approximately a $5 million or seven percent 
increase above FY 2015 levels. Roughly half of the FY 2016 allocation 
will be allocated to security assistance, 28 percent to democracy 
programs, 22 percent to economic growth programs, and the remaining two 
percent to education programs.


    Question 7.  How do you assess the stability of the European 
coalition, as a whole, on the Russia sanctions issue?

    Answer. EU sanctions rollovers require unanimity among all 28 EU 
Member States. To date the EU has maintained strong solidarity on 
Russia sanctions. We have robust and continual engagement with EU 
Member States on the need to maintain sanctions on Russia until Moscow 
fully implements its Minsk commitments. Our separate Crimea-related 
sanctions will remain in place until Russia returns the peninsula to 
Ukraine.


    Question 8.  Could EU sanctions be rolled back in the next year or 
two?

    Answer. We have been clear that we believe sanctions must remain in 
place until Moscow fully implements its Minsk commitments. President 
Obama and other senior administration officials have been clear with 
President Putin and European leaders on this issue.
    In terms of when they are rolled back, the answer depends on 
Russia's behavior. In March 2015, the European Council explicitly 
agreed that the duration of sectoral sanctions is linked to the 
complete implementation of the Minsk agreements. The Council maintained 
this linkage when it extended sectoral sanctions in December 2015.


    Question 9.  What would that mean for European security? How might 
it affect US-EU relations?

    Answer. We believe the combined weight of U.S. and EU sanctions 
against Russia has prevented further Russian aggression in eastern 
Ukraine and raised the costs of Moscow's occupation of Crimea. We 
continue to work to maintain our transatlantic solidarity on this issue 
so that Russia may be incentivized to implement its Minsk commitments 
and end its occupation of Crimea.
    It is clear that Russia is trying, without success, to break EU 
solidarity, while failing to fully implement its commitments under 
Minsk. Despite Russia's efforts, U.S.-EU solidarity on sanctions will 
remain strong.


    Question 10.  We are seeing less of a conventional show of force 
from Russia, but an intensification of so-called hybrid warfare. Russia 
is using a dangerous combination of cyberattacks, propaganda, and 
little green men to destabilize and otherwise subvert Ukraine. Last 
December, Russia was behind a cyberattack on Ukraine's power grid that 
caused widespread outages, a fact confirmed by Obama administration 
officials last month.

  <diamond> How do you think Russia might use cyber warfare going 
        forward to destabilize Ukraine?


    Answer. With regard to the December 2015 attack on Ukraine's power 
grid, the United States has not made any judgements on attribution, but 
we view malicious cyber activity that targets critical infrastructure 
particularly seriously, as it potentially places the public at risk of 
harm.
    The Director for National Intelligence has recently assessed that 
Russian cyber operations are likely to support several strategic 
objectives: intelligence gathering to support Russian decision making 
in the Ukraine and Syrian crises, influence operations to support 
military and political objectives, and continuing preparation of the 
cyber environment for future contingencies.
    Ukraine has been an excellent partner in identifying cyber events 
and sharing information about tactics, techniques, and procedures. We 
look forward to continuing to work with Ukraine to build its resilience 
in the area of cyber defense.


    Question 11.  To what extent is the return of Crimea to Ukraine a 
part of the discussion among leaders in the U.S. and Europe?

    Answer. Russia's occupation and attempted annexation of sovereign 
Ukrainian territory, Crimea, disrupts 70 years of international order 
and has drawn the condemnation of free, democratic societies around the 
globe. The United States does not and will not recognize Russia's 
attempted annexation. Ending Russia's ongoing occupation of Crimea 
remains a central part of our Ukraine policy.
    In response to Russia's occupation of Crimea, the United States, in 
coordination with our European partners, instituted sanctions against 
Russia in December 2014. The sanctions prohibit U.S. citizens from 
engaging in most economic activities with the territory of occupied 
Crimea and allow Treasury, in consultation with State, to designate any 
entity that operates there. These sanctions will remain in place as 
long as Russia continues to occupy Crimea and we are committed to a 
long-term non-recognition policy, backed with the force of sanctions.
    Since Russia's attempted annexation, the human rights situation in 
Crimea has deteriorated dramatically, with mounting repression and 
harassment of individuals from minority communities, in particular of 
Crimean Tatars, those of non-Russian Orthodox Christian faiths, and 
those who oppose Russia's occupation. De facto authorities have 
systematically denied individuals their fundamental freedoms of speech, 
assembly, and association. Local residents have been detained, 
interrogated, and, in many cases, subjected to forced disappearance. 
NGOs and independent media have been driven out of the peninsula. 
Russian occupation authorities have also banned the Mejlis, the 
legislative body of the Crimean Tatars.
    The Department of State has consistently raised the human rights 
situation under Russian occupation at multilateral fora, in press 
statements, and at the podium to shine a light on ongoing abuses and 
mobilize the international community to condemn the occupation and 
continue to impose costs on Russia. U.S. Ambassador to the United 
Nations Samantha Power has raised the human rights situation regularly 
in her remarks in the Security Council and in public events. Also, U.S. 
Ambassador to the Organization for Security and Cooperation in Europe 
Dan Baer has raised by name the cases of hostages and persons unjustly 
detained by Russia in many statements in the OSCE Permanent Council. 
The United States will continue to raise the situation in Crimea until 
Russia ends its occupation of sovereign this piece of Ukrainian 
territory.




                                  <all>
</pre></body></html>
